'''VIC'


              DEPARTMENT OF HEALTH &. HUMAN SERVICES                                     Office of Inspector General


  .no                                                                                    Washington , D. C.   20201


                                                  DEC   1 4 2005




     TO:            Edwin L. Walker
                    Deputy Assistant Secretary for Policy and Programs
                    Administration on Aging

     FROM:
                         --r -r

                          1t. WngIW .
                    Deputy Inspector General
                      for Evaluation and Inspections

     SUBJECT:       Performance Data for the Senior Medicare Patrol Projects: December 2005
                    Performance Report (OEI- 02- 04- 00362)


     The Offce of Inspector General (OIG) has collected performance data from the Senior
     Medicare Patrol Projects since 1997. These projects receive grants from the Administration
     on Aging to recruit retired professionals to serve as educators and resources in assisting
     beneficiaries to detect and report fraud , waste , and abuse in the Medicare program. At least
     1 project is located in each of the 50 States , the District of Columbia , and Puerto Rico.

    In the 6 months from January through June 2005 , a total of 57 projects educated 192 900
    beneficiaries in 64 238 group training sessions and one-on-one sessions. As a result of
    educating beneficiaries , the projects received 11 963 complaints , of which 408 were referred
    to Medicare contractors for followup. A total of 358 complaints resulted in money recouped
    to the Medicare program or in some other action taken by a Medicare contractor or
    investigative agency. In total , the projects documented $83 190 recouped to the Medicare
    program. The projects also reported $44 497 in savings to beneficiaries. In all ofthese cases
    the projects provided descriptions of out-of- pocket expenses being retured to beneficiaries
    and savings due to resolution of biling errors.

    OIG issued two reports in 1999 on the projects ' first- year and second- year performance data
    (OEI- 02- 97- 00522 and OEI- 02-97- 00523). OIG has since released reports on these performance
    data for each subsequent 6-month period. Since the inception of the program 8 years ago , a total
    of62 projects (5 of which closed between June 2002 and December 2003) have educated
    approximately 2. 2 milion beneficiaries in 600 000 group training sessions and one-on-one
    sessions. As a result of educating beneficiaries , the projects received 59 048 complaints , of which
      723 resulted in some action. Total savings to the Medicare program attributable to the projects
    were $4 056 037. Self-reported savings to beneficiaries , Medicaid , and other payers were
    approximately $100 milion. Most ofthe $100 milion in savings is the result of one project's
    involvement in adjustments to Medicaid claims for individuals entitled to both Medicaid and
    Medicare. The appendixes contain more information on the performance of each project.
Page 2 – Edwin L. Walker

We continue to emphasize that the number of beneficiaries who have learned to detect fraud,
waste, and abuse from the Senior Medicare Patrol Projects, and who subsequently call the OIG
fraud hotline or other contacts, cannot be tracked. Therefore, the projects may not be receiving
full credit for savings attributable to their work. In addition, substantial savings, which cannot be
tracked, may be derived from a sentinel effect whereby fraud and errors are reduced in light of
Medicare beneficiaries’ scrutiny of their bills.

In 2001, the Centers for Medicare & Medicaid Services (CMS) developed a tracking system
that requires each contractor to provide semiannual reports of all complaints initiated by the
Senior Medicare Patrol Projects. We asked each project director to submit all tracking reports
and correspondence that they received from a Medicare contractor, regardless of whether
actual savings occurred. In the current reporting period, 17 of the 57 projects submitted a
total of 20 forms of documentation. Fifteen of these seventeen projects submitted at least one
tracking report; the other two projects submitted letters from a contractor. Ten of the tracking
reports documented actual savings to the Medicare program. In addition, CMS sent us
another three tracking reports that the contractors had not sent to the individual projects that
documented an additional $6,848 in savings.

We will continue to monitor the projects and provide you with summary reports of performance
data. If you have any questions, please call me at (202) 619-0480, or you may contact Jodi
Nudelman, Regional Inspector General for Evaluation and Inspections, New York region,
at (212) 264-2000.

Attachments:
Appendix A - Summary of Performance for All Projects Since 1997
Appendix B - Summary of Performance for All Projects in the Last Two Reporting Periods
Appendix C - Projects’ Results for Each Performance Measure in the Last Two Reporting Periods
Appendix D - Individual Project Results for All Projects in the Last Two Reporting Periods




                                                                                                        2
       Senior Medicare Patrol Projects’ Performance Measure Results 




                                     List of Appendixes
                                                                                            Page


Appendix A: Summary of Performance for All Projects Since 1997………………………………...4 


Appendix B: Summary of Performance for All Projects in the Last Two Reporting Periods……......6 


Appendix C: Projects’ Results for Each Performance Measure in the Last Two Reporting Periods...8 


Appendix D: Individual Project Results for All Projects in the Last Two Reporting Periods…..….26 





                                                                                                3
Δ       A P P E N D I X                ~     A 





                              Summary of Performance for All Projects Since 1997

The following table provides the overall performance measure results for all 62 projects that have ever operated since 1997. 


Cumulative totals since 1997 are no longer reported for performance measure 9. 


Total savings to Medicaid, beneficiaries, and other entities were not broken out prior to July 2003. Therefore, this table does not 

contain data for performance measures 15A, 15B, and 15C.





                                                                                                                                        4
A    P    P E N D     I X ~     A      



                                       Summary of Performance for All Projects Since 1997
                                                  OUTPUT MEASURES

     1       Number of training sessions conducted to train new volunteers                                        8,133

     2       Number of new volunteers trained                                                                   52,066

     3       Number of media events conducted                                                                  137,903

     4       Number of community education events conducted                                                     33,145
                                                 OUTCOME MEASURES

     5       Number of volunteers who, for the first time, conducted activities to educate beneficiaries        19,357

     6       Number of group sessions for beneficiaries led by volunteers                                       42,135

     7       Number of beneficiaries who attended group sessions led by volunteers                            1,628,869

     8       Number of one-on-one sessions held between beneficiaries and volunteers                           557,242

    7+8      Total number of beneficiaries educated                                                           2,186,111

     9       Estimated number of people reached by media events                                                     NA

    10       Estimated number of people reached by community education events                                15,542,596

    11       Number of complaints received attributable to the project                                          59,048

    12       Number of complaints referred for followup                                                           9,875

    13       Number of complaints that resulted in some action                                                    4,723

    14       Medicare funds recovered attributable to the project                                            $4,056,037

    15A      Medicaid funds recovered attributable to the project                                                   NA

    15B      Savings to beneficiaries attributable to the project                                                   NA

    15C      Other savings attributable to the project                                                              NA

TOTAL 15     Total Medicaid funds, beneficiary savings, and other savings                                  $100,226,184

 14 + 15     Total savings attributable to the project                                                     $104,282,221
                                                                                                                   5
 Δ        A P P E N D I X              ~     B



            Summary of Performance for All Projects in the Last Two Reporting Periods

The following table provides data for the 57 projects that operated from July 2004 through June 2005.




                                                                                                        6
   A     P   P E N D        I X ~     B      



                               Summary of Performance for All Projects in the Last Two Reporting Periods
                                                                                                            July through January through Change in Last
                                                                                                           December 2004    June 2005      6 Months

                                                 OUTPUT MEASURES
    1        Number of training sessions conducted to train new volunteers                                            580            795            215
    2        Number of new volunteers trained                                                                       2,725           3,715           990
    3        Number of media events conducted                                                                       7,931          20,786        12,855
    4        Number of community education events conducted                                                         3,550           3,716           166
                                         OUTCOME MEASURES
    5        Number of volunteers who, for the first time, conducted activities to educate beneficiaries              985           1,058              73
    6        Number of group sessions for beneficiaries led by volunteers                                           2,999           3,378           379
    7        Number of beneficiaries who attended group sessions led by volunteers                                102,875        132,040         29,165
    8        Number of one-on-one sessions held between beneficiaries and volunteers                               76,728          60,860        -15,868
  7+8        Total number of beneficiaries educated                                                               179,603        192,900         13,297
    9        Estimated number of people reached by media events                                                 45,466,817     57,550,356     12,083,539
   10        Estimated number of people reached by community education events                                     491,871        384,427        -107,444
   11        Number of complaints received attributable to the project                                              6,338          11,963         5,625
   12        Number of complaints referred for followup                                                               559            408           -151
   13        Number of complaints that resulted in some action                                                        328            358               30
   14        Medicare funds recovered attributable to the project                                                 $27,281        $83,190        $55,909
   15A       Medicaid funds recovered attributable to the project                                                 $17,109             $0        -$17,109
   15B       Savings to beneficiaries attributable to the project                                                $149,143        $44,497      -$104,646
   15C       Other savings attributable to the project                                                               $900             $0          -$900
TOTAL 15 Total Medicaid funds, beneficiary savings and other savings                                             $167,152        $44,497      -$122,655
 14 + 15 Total savings attributable to the project                                                               $194,433       $127,687        -$66,746



                                                                                                                                                   7
Δ      A P P E N D I X              ~     C



       Projects’ Results for Each Performance Measure in the Last Two Reporting Periods


The following tables provide the results for each performance measure for each of the 57 Senior Medicare Patrol Projects.

Please note that performance measure 9, “Estimated number of people reached by media events,” is calculated by adding the average
number of viewers reached each time an advertisement is aired and the number of readers reached for each individual printed
advertisement.




                                                                                                                                    8
A     P     P E N D   I X ~   C       


                         PERFORMANCE MEASURE 1: Number of Training Sessions Conducted to Train New Volunteers
                                  July - Dec. 2004        Jan. - June 2005                          July - Dec. 2004         Jan. - June 2005
    Alabama                                          20                      7     Nebraska                             4                       12
    Alaska                                            2                      5     Nevada                               3                        1
    Arizona                                          74                  15        New Hampshire                        0                        3
    Arkansas                                          9                      4     New Jersey                           0                        0
    California                                        2                  22        New Mexico                          24                       34
    Colorado                                          0                      4     New York                            28                       41
    Connecticut                                       4                      5     North Carolina                       2                       4
    Delaware                                          1                      2     North Dakota                         1                        2
    DC – AARP                                         1                      2     Ohio - COAAA                         1                        0
    DC – FH                                           5                      5     Ohio - PSI                           0                        0
    Florida                                           1                      2     Oklahoma                             1                       1
    Georgia – ARC                                     3                      0     Oregon                              4                        22
    Georgia – DHR                                     6                  28        Pennsylvania                        1                        2
    Hawaii                                            2                      4     Puerto Rico                          5                        3
    Idaho                                             8                  10        Rhode Island                         1                       0
    Illinois                                          4                  18        South Carolina                       1                       4
    Indiana                                           9                  22        South Dakota                         1                        0
    Iowa                                              7                  12        Tennessee                           10                       5
    Kansas                                            0                      0     Texas - BBBEF                        0                        1
    Kentucky                                          9                  12        Texas - NHCOA                        8                        9
    Louisiana                                         3                      3     Utah                                19                       48
    Maine                                             5                      9     Vermont                              2                        2
    Maryland                                         24                  25        Virginia                             2                        1
    Massachusetts                                     7                      2     Washington                      204                        214
    Michigan                                          5                  11        West Virginia                        1                        2
    Minnesota                                        16                 132        WI - CWAG                            3                        5
    Mississippi                                      15                      6     WI - GLITC                           1                        2
    Missouri                                          1                      4     Wyoming                              1                        1
    Montana                                           9                      5


                      PERFORMANCE MEASURE 1                       July through December 2004             January through June 2005
                                             TOTAL                               580                                   795

                                                                                                                                          9
A   P   P E N D   I X ~   C    


                                   PERFORMANCE MEASURE 2: Number of New Volunteers Trained
                          July - Dec. 2004    Jan. - June 2005                         July - Dec. 2004     Jan. - June 2005
Alabama                                 116                  51    Nebraska                            19                      50
Alaska                                  127                  30    Nevada                               3                       2
Arizona                                  30                  33    New Hampshire                        3                      32
Arkansas                                 54                  45    New Jersey                           0                       0
California                               70                 357    New Mexico                          14                     100
Colorado                                  0                  19    New York                           692                     698
Connecticut                              50                  16    North Carolina                       6                     109
Delaware                                  2                   4    North Dakota                         7                       4
DC – AARP                                 5                   7    Ohio – COAAA                        18                       0
DC – FH                                   3                   6    Ohio – PSI                           0                       0
Florida                                   4                   8    Oklahoma                             4                      10
Georgia – ARC                             5                   0    Oregon                              50                     128
Georgia – DHR                            30                 118    Pennsylvania                         7                      11
Hawaii                                   12                   5    Puerto Rico                         15                       3
Idaho                                     7                  23    Rhode Island                         2                       0
Illinois                                 16                  56    South Carolina                       2                       4
Indiana                                  63                 107    South Dakota                         2                       0
Iowa                                     32                  14    Tennessee                           39                      46
Kansas                                    0                   0    Texas – BBBEF                        0                      12
Kentucky                                  8                  45    Texas – NHCOA                       83                     128
Louisiana                                76                  95    Utah                               176                     212
Maine                                    23                  17    Vermont                             19                      19
Maryland                                407                 456    Virginia                             7                       3
Massachusetts                            77                  18    Washington                          84                      69
Michigan                                 22                 226    West Virginia                        2                      14
Minnesota                                44                  91    WI – CWAG                           49                      96
Mississippi                              27                  19    WI – GLITC                          52                      25
Missouri                                  6                  32    Wyoming                              6                      37
Montana                                  48                   5


                PERFORMANCE MEASURE 2                 July through December 2004             January through June 2005
                               TOTAL                             2,725                                  3,715


                                                                                                                         10
A   P   P E N D   I X ~   C    


                                   PERFORMANCE MEASURE 3: Number of Media Events Conducted
                          July - Dec. 2004    Jan. - June 2005                         July - Dec. 2004     Jan. - June 2005
Alabama                                  76                 136      Nebraska                          24                    23
Alaska                                    2                   1      Nevada                             6                     8
Arizona                                  28                  14      New Hampshire                     18                     6
Arkansas                                 19                  19      New Jersey                         3                     4
California                               17                  36      New Mexico                        15                    12
Colorado                                 33                   6      New York                          17                    26
Connecticut                              12                  17      North Carolina                    10                    16
Delaware                                 11                   5      North Dakota                      32                    17
DC - AARP                                 2                   0      Ohio - COAAA                     175                   130
DC - FH                                   5                   3      Ohio - PSI                       556                   462
Florida                                  38                   5      Oklahoma                         906                     0
Georgia - ARC                            18                  31      Oregon                             3                     7
Georgia - DHR                            24                  78      Pennsylvania                       4                    15
Hawaii                                    9                   5      Puerto Rico                        6                     3
Idaho                                    35                  29      Rhode Island                   1,227                 1,480
Illinois                                 32                  93      South Carolina                    13                    16
Indiana                                  16                   6      South Dakota                       2                 3,070
Iowa                                  2,249               2,095      Tennessee                         53                    67
Kansas                                    6                   4      Texas - BBBEF                      4                     4
Kentucky                                 61                  97      Texas - NHCOA                     26                    25
Louisiana                                49                  44      Utah                               9                    14
Maine                                   117                  94      Vermont                            6                    36
Maryland                                427                  38      Virginia                          39                    34
Massachusetts                           201                 179      Washington                        83                   125
Michigan                                  1                   3      West Virginia                     28                    27
Minnesota                                 2                   0      WI - CWAG                         66                 6,091
Mississippi                             627               1,009      WI - GLITC                        10                     9
Missouri                                 13                   8      Wyoming                            3                     3
Montana                                 457               5,001


                PERFORMANCE MEASURE 3                 July through December 2004             January through June 2005
                                     TOTAL                        7,931                               20,786


                                                                                                                         11
A   P   P E N D   I X ~   C     




                          PERFORMANCE MEASURE 4: Number of Community Education Events Conducted
                          July - Dec. 2004    Jan. - June 2005                       July - Dec. 2004     Jan. - June 2005
Alabama                                 254                 279    Nebraska                          68                     69
Alaska                                   15                   5    Nevada                            17                     35
Arizona                                  97                  24    New Hampshire                     78                     32
Arkansas                                 26                  42    New Jersey                        12                     39
California                               64                 176    New Mexico                       105                     10
Colorado                                 35                  17    New York                          33                     41
Connecticut                              78                  40    North Carolina                    27                     60
Delaware                                  8                  13    North Dakota                      14                     15
DC – AARP                                13                  10    Ohio – COAAA                      50                     50
DC – FH                                  16                  19    Ohio – PSI                        15                     25
Florida                                  16                  65    Oklahoma                          47                      6
Georgia – ARC                             7                   3    Oregon                            39                     89
Georgia – DHR                            72                 207    Pennsylvania                      47                     17
Hawaii                                   14                   6    Puerto Rico                       29                     34
Idaho                                    95                 127    Rhode Island                       6                     12
Illinois                                 49                 143    South Carolina                    24                    104
Indiana                                  75                  93    South Dakota                      15                      9
Iowa                                    132                  94    Tennessee                        121                    159
Kansas                                    2                   1    Texas – BBBEF                    167                     36
Kentucky                                 38                 103    Texas – NHCOA                     26                     23
Louisiana                                69                  78    Utah                              30                     36
Maine                                    84                  98    Vermont                           22                     10
Maryland                                329                 181    Virginia                         121                    223
Massachusetts                           503                 334    Washington                        49                     64
Michigan                                  8                   6    West Virginia                     33                     45
Minnesota                                65                  15    WI – CWAG                         31                     80
Mississippi                              76                  83    WI – GLITC                        18                     15
Missouri                                 30                  15    Wyoming                            9                     36
Montana                                  27                  65

                PERFORMANCE MEASURE 4                 July through December 2004          January through June 2005
                               TOTAL                             3,550                               3,716

                                                                                                                      12
A   P   P E N D    I X ~   C     


         PERFORMANCE MEASURE 5: Number of Volunteers Who, for the First Time, Conducted Activities to Educate Beneficiaries
                           July - Dec. 2004    Jan. - June 2005                              July - Dec. 2004     Jan. - June 2005
Alabama                                   35                  17    Nebraska                                 29                      18
Alaska                                   127                  30    Nevada                                    3                       3
Arizona                                   29                  15    New Hampshire                             1                      17
Arkansas                                  25                  29    New Jersey                                0                       0
California                                22                  17    New Mexico                               14                      10
Colorado                                   3                   4    New York                                256                      24
Connecticut                                3                   4    North Carolina                            3                       8
Delaware                                   4                   3    North Dakota                              4                       6
DC - AARP                                  0                   1    Ohio - COAAA                             29                       9
DC - FH                                    2                   4    Ohio - PSI                                0                       1
Florida                                    7                   7    Oklahoma                                  0                       0
Georgia - ARC                              5                   0    Oregon                                   50                       0
Georgia - DHR                              8                 402    Pennsylvania                              3                       5
Hawaii                                     0                   0    Puerto Rico                               1                       1
Idaho                                      3                   3    Rhode Island                              2                       0
Illinois                                   7                  41    South Carolina                            0                       0
Indiana                                    6                   2    South Dakota                              6                       2
Iowa                                      32                  12    Tennessee                                16                      14
Kansas                                     0                   0    Texas - BBBEF                             0                      12
Kentucky                                   6                  42    Texas - NHCOA                             0                       8
Louisiana                                 41                  38    Utah                                     56                      92
Maine                                      5                   1    Vermont                                   0                       0
Maryland                                   1                   0    Virginia                                  2                       0
Massachusetts                              3                   0    Washington                               84                      69
Michigan                                   0                   0    West Virginia                             5                       5
Minnesota                                  8                  18    WI - CWAG                                 8                       7
Mississippi                               15                  19    WI - GLITC                                0                       0
Missouri                                   6                  32    Wyoming                                   2                       5
Montana                                    8                   1

                 PERFORMANCE MEASURE 5                 July through December 2004                 January through June 2005
                                TOTAL                              985                                       1,058

                                                                                                                              13
A   P   P E N D   I X ~   C    


                    PERFORMANCE MEASURE 6: Number of Group Sessions for Beneficiaries Led by Volunteers
                          July - Dec. 2004    Jan. - June 2005                         July - Dec. 2004     Jan. - June 2005
Alabama                                 164                 121    Nebraska                           108                     50
Alaska                                   10                  10    Nevada                              11                     13
Arizona                                  24                  24    New Hampshire                        7                      7
Arkansas                                 45                  59    New Jersey                          68                      0
California                               53                 120    New Mexico                          97                     48
Colorado                                 46                  66    New York                            59                     63
Connecticut                              10                   7    North Carolina                      15                     23
Delaware                                 64                  35    North Dakota                         4                     25
DC – AARP                                19                  25    Ohio – COAAA                        38                     22
DC – FH                                   7                   8    Ohio – PSI                          41                     24
Florida                                  33                  51    Oklahoma                             0                     22
Georgia – ARC                            46                 228    Oregon                              41                     74
Georgia – DHR                            15                 188    Pennsylvania                       103                    152
Hawaii                                   25                  25    Puerto Rico                         58                     70
Idaho                                   147                  27    Rhode Island                        10                     15
Illinois                                 73                 182    South Carolina                      64                      0
Indiana                                  19                  79    South Dakota                         3                      5
Iowa                                    241                 314    Tennessee                          123                     89
Kansas                                    0                   0    Texas – BBBEF                        7                     23
Kentucky                                147                 132    Texas – NHCOA                       25                    125
Louisiana                                75                  54    Utah                                38                     45
Maine                                   137                  94    Vermont                              0                      0
Maryland                                  1                   0    Virginia                            30                     28
Massachusetts                           205                 115    Washington                         132                    220
Michigan                                 23                  17    West Virginia                       10                     16
Minnesota                                 7                  18    WI – CWAG                           52                     44
Mississippi                             106                  62    WI – GLITC                           0                      0
Missouri                                  9                  54    Wyoming                              6                      7
Montana                                  98                  53

                PERFORMANCE MEASURE 6                 July through December 2004            January through June 2005
                               TOTAL                             2,999                                 3,378



                                                                                                                        14
A   P   P E N D   I X ~   C    


                PERFORMANCE MEASURE 7: Number of Beneficiaries Who Attended Group Sessions Led by Volunteers
                          July - Dec. 2004    Jan. - June 2005                          July - Dec. 2004     Jan. - June 2005
Alabama                              11,032               2,929    Nebraska                          3,350                1,254
Alaska                                  100                  40    Nevada                              210                  117
Arizona                               1,140               2,287    New Hampshire                       374                  149
Arkansas                              1,029               1,228    New Jersey                        3,945                    0
California                            1,590               3,424    New Mexico                        7,682                1,614
Colorado                              1,637               1,879    New York                          1,885                2,085
Connecticut                             482                 163    North Carolina                      665                  627
Delaware                              1,179               3,462    North Dakota                        116                1,668
DC – AARP                               645               1,015    Ohio – COAAA                        708                  372
DC – FH                                 400                 268    Ohio – PSI                          958                1,756
Florida                                 976               3,999    Oklahoma                              0                  549
Georgia – ARC                         1,323               5,906    Oregon                              816                2,021
Georgia – DHR                           415               4,694    Pennsylvania                      2,967               11,115
Hawaii                                1,611               1,600    Puerto Rico                       1,794                2,646
Idaho                                 4,478                 780    Rhode Island                        212                  430
Illinois                              2,968               5,344    South Carolina                    1,780                    0
Indiana                                 302               2,015    South Dakota                        350                   77
Iowa                                  7,973              23,797    Tennessee                         8,506               10,539
Kansas                                    0                   0    Texas – BBBEF                       139                  716
Kentucky                              4,497               4,461    Texas – NHCOA                     1,650                3,692
Louisiana                             1,482               1,112    Utah                                705                1,149
Maine                                 2,807               2,399    Vermont                               0                    0
Maryland                                  0                   0    Virginia                            464                  355
Massachusetts                             0                   0    Washington                        6,279                9,322
Michigan                              1,145                 654    West Virginia                       241                  656
Minnesota                               251                 150    WI – CWAG                         1,982                1,167
Mississippi                           1,945               2,227    WI – GLITC                            0                    0
Missouri                                191                 860    Wyoming                             206                   45
Montana                               3,293               1,226

                PERFORMANCE MEASURE 7                 July through December 2004             January through June 2005
                               TOTAL                            102,875                               132,040



                                                                                                                         15
A   P   P E N D    I X ~   C    


                PERFORMANCE MEASURE 8: Number of One-on-One Sessions Held Between Beneficiaries and Volunteers
                           July - Dec. 2004    Jan. - June 2005                          July - Dec. 2004     Jan. - June 2005
Alabama                                  961                 940    Nebraska                            357                  164
Alaska                                    25                  20    Nevada                               65                  241
Arizona                                   30                   0    New Hampshire                     1,881                1,548
Arkansas                                  57                  60    New Jersey                          250                    0
California                                68                  38    New Mexico                       17,957               17,634
Colorado                                  39                  24    New York                          5,441                  237
Connecticut                               16                   5    North Carolina                        8                  102
Delaware                                  16                 170    North Dakota                         10                    0
DC - AARP                                  0                   0    Ohio - COAAA                        628                  156
DC - FH                                   40                  40    Ohio - PSI                           22                    6
Florida                                    2                   1    Oklahoma                              0                    2
Georgia - ARC                            266                 552    Oregon                            2,261                3,076
Georgia - DHR                             84                 202    Pennsylvania                        137                  520
Hawaii                                     0                   0    Puerto Rico                         324                  420
Idaho                                    418                 759    Rhode Island                          0                    0
Illinois                                   6                   7    South Carolina                      100                  127
Indiana                                  240                 252    South Dakota                        124                  177
Iowa                                      52                  49    Tennessee                         1,043                2,128
Kansas                                    15                  24    Texas - BBBEF                         5                  104
Kentucky                               1,325               2,641    Texas - NHCOA                       116                  436
Louisiana                                399                 315    Utah                                417                1,386
Maine                                    436                 710    Vermont                               0                    0
Maryland                               1,318               1,190    Virginia                              0                    0
Massachusetts                         13,487               5,676    Washington                       23,179               16,252
Michigan                                  13                  27    West Virginia                         3                    1
Minnesota                                 11                  32    WI - CWAG                            39                   15
Mississippi                              307                 998    WI - GLITC                            0                    0
Missouri                                 110                  82    Wyoming                             921                  815
Montana                                1,699                 499

                 PERFORMANCE MEASURE 8                 July through December 2004             January through June 2005
                                TOTAL                             76,728                                60,860



                                                                                                                          16
A   P   P E N D   I X ~    C    


                          PERFORMANCE MEASURE 9: Estimated Number of People Reached by Media Events
                           July - Dec. 2004     Jan. - June 2005                       July - Dec. 2004     Jan. - June 2005
Alabama                             1,053,768             108,925    Nebraska                     624,811              429,195
Alaska                                500,000             500,000    Nevada                         6,000                4,500
Arizona                                10,333              52,802    New Hampshire                300,000              220,000
Arkansas                              257,200             882,388    New Jersey                   750,000               27,350
California                          4,413,000           5,500,000    New Mexico                   494,000              251,310
Colorado                              489,000             460,300    New York                     252,000              435,000
Connecticut                           593,000             768,000    North Carolina                44,300               40,072
Delaware                              600,000             200,000    North Dakota                  27,450              122,544
DC - AARP                             690,000                   0    Ohio - COAAA                 650,000              200,000
DC - FH                                17,000             375,000    Ohio - PSI                 3,123,413            4,009,213
Florida                             1,773,533             533,300    Oklahoma                     271,000                    0
Georgia - ARC                         109,500             186,302    Oregon                        23,000                7,292
Georgia - DHR                         582,186           1,020,801    Pennsylvania                 200,000            1,120,000
Hawaii                                420,000             200,000    Puerto Rico                  425,000              375,000
Idaho                                 308,502             627,929    Rhode Island               7,000,000            6,000,000
Illinois                            2,221,000           8,893,230    South Carolina                16,729               46,800
Indiana                                88,769               4,800    South Dakota                  14,184              284,000
Iowa                                1,896,846           1,142,908    Tennessee                    727,526            1,442,023
Kansas                                 27,500              22,000    Texas - BBBEF                 27,038               45,300
Kentucky                              879,961           1,700,797    Texas - NHCOA              2,300,000            2,751,000
Louisiana                              31,200             102,200    Utah                           3,227                8,919
Maine                               1,467,356           1,144,895    Vermont                      134,204              202,000
Maryland                              104,100             183,997    Virginia                   1,475,200            1,388,533
Massachusetts                       3,794,987           3,608,672    Washington                   920,721            5,659,464
Michigan                               10,000             215,000    West Virginia              1,769,380            1,448,151
Minnesota                               5,500                   0    WI - CWAG                     58,837            1,577,345
Mississippi                           391,065             280,052    WI - GLITC                     7,404                  647
Missouri                              300,000              25,000    Wyoming                       55,330              100,000
Montana                               730,757             615,400

                PERFORMANCE MEASURE 9                   July through December 2004          January through June 2005
                               TOTAL                             45,466,817                         57,550,356



                                                                                                                        17
A   P   P E N D    I X ~   C    


                  PERFORMANCE MEASURE 10: Estimated Number of People Reached by Community Education Events
                           July - Dec. 2004    Jan. – June 2005                        July - Dec. 2004     Jan. - June 2005
Alabama                               72,941              29,748    Nebraska                        9,366               13,791
Alaska                                   200                 185    Nevada                          4,070                3,870
Arizona                                9,319               2,598    New Hampshire                  10,200                  880
Arkansas                               2,771               5,305    New Jersey                      8,850                5,370
California                             5,894               5,023    New Mexico                     47,021                4,345
Colorado                               1,439               1,328    New York                        7,115               16,352
Connecticut                            4,187               7,774    North Carolina                  2,690                5,138
Delaware                               2,827               1,550    North Dakota                    2,585                3,810
DC - AARP                              9,860               3,375    Ohio - COAAA                   10,000                4,700
DC - FH                                  650               3,325    Ohio - PSI                      3,336                4,156
Florida                                1,146               3,976    Oklahoma                        4,697                8,611
Georgia - ARC                            596                 212    Oregon                          4,615                4,216
Georgia - DHR                          6,494               7,369    Pennsylvania                   11,443                1,588
Hawaii                                10,500               5,000    Puerto Rico                     2,151                1,079
Idaho                                  5,031               9,568    Rhode Island                   11,000                9,000
Illinois                              11,303               6,980    South Carolina                  4,207               12,280
Indiana                               30,650              14,127    South Dakota                      380                  630
Iowa                                   9,732               7,127    Tennessee                      45,567               31,318
Kansas                                    80                 200    Texas - BBBEF                   2,935                1,659
Kentucky                               3,354               5,289    Texas - NHCOA                   7,370                2,613
Louisiana                              2,950               4,019    Utah                            7,030                1,539
Maine                                 13,541               7,235    Vermont                           772                  320
Maryland                               5,766               5,801    Virginia                        4,294               12,678
Massachusetts                         25,437              12,949    Washington                     10,088               18,834
Michigan                                 423                 799    West Virginia                   5,368               27,793
Minnesota                              2,072                 248    WI - CWAG                      11,866                6,488
Mississippi                            4,917               8,962    WI - GLITC                      1,705                  660
Missouri                               2,400               2,500    Wyoming                           310               15,000
Montana                                4,360               3,137

                PERFORMANCE MEASURE 10                 July through December 2004           January through June 2005
                                TOTAL                            491,871                             384,427



                                                                                                                        18
A   P   P E N D   I X ~   C    


                      PERFORMANCE MEASURE 11: Number of Complaints Received Attributable to the Project
                          July - Dec. 2004    Jan. - June 2005                           July - Dec. 2004     Jan. - June 2005
Alabama                                 612                  38    Nebraska                              12                   12
Alaska                                    3                   2    Nevada                                11                   45
Arizona                                  41                   6    New Hampshire                          5                    3
Arkansas                                 50                  20    New Jersey                            44                    1
California                               68                  55    New Mexico                         2,912                9,265
Colorado                                  5                   4    New York                             200                  217
Connecticut                              18                   5    North Carolina                        21                   34
Delaware                                 16                  28    North Dakota                           0                    0
DC - AARP                                48                  10    Ohio - COAAA                           3                    6
DC - FH                                   5                  10    Ohio - PSI                             3                   10
Florida                                  11                  13    Oklahoma                              13                   12
Georgia - ARC                            16                   9    Oregon                                 4                   15
Georgia - DHR                            18                  48    Pennsylvania                         148                   99
Hawaii                                    0                  25    Puerto Rico                           65                   23
Idaho                                   626                 262    Rhode Island                           5                    4
Illinois                                  3                   5    South Carolina                         2                    2
Indiana                                  10                   0    South Dakota                           5                    1
Iowa                                     52                  49    Tennessee                             14                   16
Kansas                                    1                   0    Texas - BBBEF                         20                   50
Kentucky                                 22                  34    Texas - NHCOA                         58                  436
Louisiana                                 9                  11    Utah                                  14                   89
Maine                                     1                   0    Vermont                                3                    4
Maryland                                407                 403    Virginia                              23                   12
Massachusetts                           522                 382    Washington                            10                   12
Michigan                                  0                   0    West Virginia                          5                    7
Minnesota                                31                  47    WI - CWAG                             22                   24
Mississippi                              59                  23    WI - GLITC                             0                    0
Missouri                                  8                   5    Wyoming                                4                   25
Montana                                  50                  45

                PERFORMANCE MEASURE 11                July through December 2004              January through June 2005
                                TOTAL                            6,338                                  11,963



                                                                                                                          19
A   P   P E N D   I X ~   C     


                              PERFORMANCE MEASURE 12: Number of Complaints Referred for Followup
                          July - Dec. 2004    Jan. - June 2005                          July - Dec. 2004        Jan. - June 2005
Alabama                                 100                   2    Nebraska                                 7                       6
Alaska                                    0                   0    Nevada                                   1                       4
Arizona                                   2                   3    New Hampshire                            0                       1
Arkansas                                 22                   7    New Jersey                               2                       1
California                               38                  55    New Mexico                              54                      27
Colorado                                  1                   1    New York                                64                      53
Connecticut                               3                   4    North Carolina                           3                      10
Delaware                                  4                  11    North Dakota                             0                       0
DC - AARP                                 1                   0    Ohio - COAAA                             2                       2
DC - FH                                   0                  10    Ohio - PSI                               0                       4
Florida                                   1                   5    Oklahoma                                 4                       6
Georgia - ARC                             5                   4    Oregon                                   0                       3
Georgia - DHR                            12                  10    Pennsylvania                             3                       0
Hawaii                                    0                   0    Puerto Rico                             44                      19
Idaho                                     1                   3    Rhode Island                             4                       0
Illinois                                  1                   5    South Carolina                           2                       2
Indiana                                   2                   0    South Dakota                             0                       1
Iowa                                     19                  15    Tennessee                                8                       2
Kansas                                    1                   0    Texas - BBBEF                            8                       9
Kentucky                                  3                   3    Texas - NHCOA                            6                      26
Louisiana                                 0                   1    Utah                                    16                      22
Maine                                     0                   1    Vermont                                  2                       1
Maryland                                  2                  13    Virginia                                14                       8
Massachusetts                             0                   0    Washington                               3                       7
Michigan                                  0                   0    West Virginia                            2                       3
Minnesota                                23                  24    WI - CWAG                                2                       5
Mississippi                              14                   0    WI - GLITC                               0                       0
Missouri                                  3                   2    Wyoming                                  0                       6
Montana                                  50                   1

                PERFORMANCE MEASURE 12                July through December 2004             January through June 2005
                                TOTAL                             559                                   408



                                                                                                                           20
A   P   P E N D   I X ~   C    


                          PERFORMANCE MEASURE 13: Number of Complaints that Resulted in Some Action
                          July - Dec. 2004    Jan. - June 2005                          July - Dec. 2004     Jan. - June 2005
Alabama                                  20                   2    Nebraska                              6                      4
Alaska                                    0                   0    Nevada                                1                      0
Arizona                                   0                   0    New Hampshire                         0                      1
Arkansas                                  3                   4    New Jersey                            0                      0
California                                3                   5    New Mexico                           45                     27
Colorado                                  0                   0    New York                            200                    203
Connecticut                               0                   0    North Carolina                        0                      2
Delaware                                  0                  28    North Dakota                          0                      0
DC - AARP                                 1                   0    Ohio - COAAA                          1                      1
DC - FH                                   0                   0    Ohio - PSI                            0                      0
Florida                                   0                   1    Oklahoma                              0                      0
Georgia - ARC                             1                   1    Oregon                                4                      0
Georgia - DHR                             6                   1    Pennsylvania                          0                      1
Hawaii                                    0                   0    Puerto Rico                           9                      7
Idaho                                     1                   0    Rhode Island                          0                      0
Illinois                                  0                   2    South Carolina                        0                      0
Indiana                                   0                   0    South Dakota                          0                      0
Iowa                                      3                  12    Tennessee                             3                      0
Kansas                                    0                   0    Texas - BBBEF                         3                      2
Kentucky                                  0                   1    Texas - NHCOA                         1                      5
Louisiana                                 0                   1    Utah                                  4                      4
Maine                                     1                   1    Vermont                               0                      0
Maryland                                  1                   0    Virginia                              2                      0
Massachusetts                             0                   0    Washington                            0                      4
Michigan                                  0                   0    West Virginia                         0                      0
Minnesota                                 1                  16    WI - CWAG                             1                      4
Mississippi                               0                  18    WI - GLITC                            0                      0
Missouri                                  2                   0    Wyoming                               0                      0
Montana                                   5                   0

                PERFORMANCE MEASURE 13                July through December 2004             January through June 2005
                                TOTAL                             328                                   358



                                                                                                                         21
A   P   P E N D   I X ~    C    


                          PERFORMANCE MEASURE 14: Medicare Funds Recovered Attributable to the Project
                           July - Dec. 2004    Jan. - June 2005                           July - Dec. 2004     Jan. - June 2005
Alabama                                   $0                  $0    Nebraska                           $534                     $0
Alaska                                    $0                  $0    Nevada                                $0                    $0
Arizona                                   $0                  $0    New Hampshire                         $0                    $0
Arkansas                                  $0              $4,856    New Jersey                            $0                    $0
California                                $0              $6,552    New Mexico                            $0                    $0
Colorado                                  $0                  $0    New York                         $22,686               $36,505
Connecticut                               $0                  $0    North Carolina                        $0                    $0
Delaware                                  $0                  $0    North Dakota                          $0                    $0
DC - AARP                                 $0                  $0    Ohio - COAAA                          $0                    $0
DC - FH                                   $0                  $0    Ohio - PSI                            $0                    $0
Florida                                   $0             $27,668    Oklahoma                              $0                    $0
Georgia - ARC                            $45                $338    Oregon                                $0                    $0
Georgia - DHR                             $0                $186    Pennsylvania                          $0                    $0
Hawaii                                    $0                  $0    Puerto Rico                       $1,410                 $296
Idaho                                     $0                  $0    Rhode Island                          $0                    $0
Illinois                                  $0                  $0    South Carolina                        $0                    $0
Indiana                                   $0                  $0    South Dakota                          $0                    $0
Iowa                                      $0                  $0    Tennessee                             $0                    $0
Kansas                                    $0                  $0    Texas - BBBEF                       $962                   $79
Kentucky                                  $0                $665    Texas - NHCOA                        $65                $5,829
Louisiana                                 $0                  $0    Utah                                  $0                    $0
Maine                                     $0                  $0    Vermont                               $0                    $0
Maryland                                  $0                  $0    Virginia                          $1,520                    $0
Massachusetts                             $0                  $0    Washington                            $0                    $0
Michigan                                  $0                  $0    West Virginia                         $0                    $0
Minnesota                                 $0               $216     WI - CWAG                             $0                    $0
Mississippi                               $0                  $0    WI - GLITC                            $0                    $0
Missouri                                 $58                  $0    Wyoming                               $0                    $0
Montana                                   $0                  $0

                PERFORMANCE MEASURE 14                 July through December 2004              January through June 2005
                                TOTAL                            $27,281                                $83,190



                                                                                                                           22
A   P   P E N D    I X ~   C    


                        PERFORMANCE MEASURE 15A: Medicaid Funds Recovered Attributable to the Project
                           July - Dec. 2004    Jan. - June 2005                         July - Dec. 2004        Jan. - June 2005
Alabama                                   $0                  $0    Nebraska                               $0                      $0
Alaska                                    $0                  $0    Nevada                                 $0                      $0
Arizona                                   $0                  $0    New Hampshire                          $0                      $0
Arkansas                                  $0                  $0    New Jersey                             $0                      $0
California                                $0                  $0    New Mexico                             $0                      $0
Colorado                                  $0                  $0    New York                               $0                      $0
Connecticut                               $0                  $0    North Carolina                         $0                      $0
Delaware                                  $0                  $0    North Dakota                           $0                      $0
DC - AARP                                 $0                  $0    Ohio - COAAA                           $0                      $0
DC - FH                                   $0                  $0    Ohio - PSI                             $0                      $0
Florida                                   $0                  $0    Oklahoma                               $0                      $0
Georgia - ARC                             $0                  $0    Oregon                                 $0                      $0
Georgia - DHR                             $0                  $0    Pennsylvania                           $0                      $0
Hawaii                                    $0                  $0    Puerto Rico                            $0                      $0
Idaho                                     $0                  $0    Rhode Island                           $0                      $0
Illinois                                  $0                  $0    South Carolina                         $0                      $0
Indiana                                   $0                  $0    South Dakota                           $0                      $0
Iowa                                 $17,109                  $0    Tennessee                              $0                      $0
Kansas                                    $0                  $0    Texas - BBBEF                          $0                      $0
Kentucky                                  $0                  $0    Texas - NHCOA                          $0                      $0
Louisiana                                 $0                  $0    Utah                                   $0                      $0
Maine                                     $0                  $0    Vermont                                $0                      $0
Maryland                                  $0                  $0    Virginia                               $0                      $0
Massachusetts                             $0                  $0    Washington                             $0                      $0
Michigan                                  $0                  $0    West Virginia                          $0                      $0
Minnesota                                 $0                  $0    WI - CWAG                              $0                      $0
Mississippi                               $0                  $0    WI - GLITC                             $0                      $0
Missouri                                  $0                  $0    Wyoming                                $0                      $0
Montana                                   $0                  $0

                PERFORMANCE MEASURE 15A                July through December 2004            January through June 2005
                                 TOTAL                           $17,109                                 $0



                                                                                                                           23
A   P   P E N D    I X ~   C     


                           PERFORMANCE MEASURE 15B: Savings to Beneficiaries Attributable to the Project
                           July - Dec. 2004     Jan. - June 2005                            July - Dec. 2004     Jan. - June 2005
Alabama                                    $0                  $0    Nebraska                            $134                   $15
Alaska                                     $0                  $0    Nevada                              $200                    $0
Arizona                                    $0                  $0    New Hampshire                          $0                   $0
Arkansas                                $952                   $0    New Jersey                             $0                   $0
California                             $5,355              $5,355    New Mexico                             $0               $4,350
Colorado                                   $0               $339     New York                               $0               $1,604
Connecticut                                $0                  $0    North Carolina                         $0                   $0
Delaware                                   $0              $1,583    North Dakota                           $0                   $0
DC - AARP                                  $0                  $0    Ohio - COAAA                           $0                   $0
DC - FH                                    $0                  $0    Ohio - PSI                             $0                  $97
Florida                                    $0                  $0    Oklahoma                               $0                   $0
Georgia - ARC                              $0                  $0    Oregon                                 $0                   $0
Georgia - DHR                              $0                  $0    Pennsylvania                       $8,422               $1,673
Hawaii                                     $0                  $0    Puerto Rico                            $0                $100
Idaho                                 $31,257             $23,614    Rhode Island                           $0                   $0
Illinois                                   $0                $200    South Carolina                         $0                   $0
Indiana                                    $0                  $0    South Dakota                           $0                   $0
Iowa                                       $0                  $0    Tennessee                           $265                    $0
Kansas                                     $0                  $0    Texas - BBBEF                          $0                   $0
Kentucky                                   $0                  $0    Texas - NHCOA                          $0                   $0
Louisiana                                  $0               $925     Utah                                   $0                   $0
Maine                                      $0                  $0    Vermont                                $0                   $0
Maryland                                   $0                  $0    Virginia                               $0                   $0
Massachusetts                              $0                  $0    Washington                             $0                   $0
Michigan                                   $0                  $0    West Virginia                          $0                   $0
Minnesota                            $102,140              $4,344    WI - CWAG                              $0                   $0
Mississippi                                $0                $298    WI - GLITC                             $0                   $0
Missouri                                   $0                  $0    Wyoming                                $0                   $0
Montana                                 $420                   $0

                PERFORMANCE MEASURE 15B                 July through December 2004               January through June 2005
                                 TOTAL                            $149,143                                $44,497



                                                                                                                             24
A   P   P E N D    I X ~   C    


                               PERFORMANCE MEASURE 15C: Other Savings Attributable to the Project
                           July - Dec. 2004    Jan. - June 2005                           July - Dec. 2004     Jan. - June 2005
Alabama                                   $0                  $0    Nebraska                              $0                      $0
Alaska                                    $0                  $0    Nevada                              $900                      $0
Arizona                                   $0                  $0    New Hampshire                         $0                      $0
Arkansas                                  $0                  $0    New Jersey                            $0                      $0
California                                $0                  $0    New Mexico                            $0                      $0
Colorado                                  $0                  $0    New York                              $0                      $0
Connecticut                               $0                  $0    North Carolina                        $0                      $0
Delaware                                  $0                  $0    North Dakota                          $0                      $0
DC - AARP                                 $0                  $0    Ohio - COAAA                          $0                      $0
DC - FH                                   $0                  $0    Ohio - PSI                            $0                      $0
Florida                                   $0                  $0    Oklahoma                              $0                      $0
Georgia - ARC                             $0                  $0    Oregon                                $0                      $0
Georgia - DHR                             $0                  $0    Pennsylvania                          $0                      $0
Hawaii                                    $0                  $0    Puerto Rico                           $0                      $0
Idaho                                     $0                  $0    Rhode Island                          $0                      $0
Illinois                                  $0                  $0    South Carolina                        $0                      $0
Indiana                                   $0                  $0    South Dakota                          $0                      $0
Iowa                                      $0                  $0    Tennessee                             $0                      $0
Kansas                                    $0                  $0    Texas - BBBEF                         $0                      $0
Kentucky                                  $0                  $0    Texas - NHCOA                         $0                      $0
Louisiana                                 $0                  $0    Utah                                  $0                      $0
Maine                                     $0                  $0    Vermont                               $0                      $0
Maryland                                  $0                  $0    Virginia                              $0                      $0
Massachusetts                             $0                  $0    Washington                            $0                      $0
Michigan                                  $0                  $0    West Virginia                         $0                      $0
Minnesota                                 $0                  $0    WI - CWAG                             $0                      $0
Mississippi                               $0                  $0    WI - GLITC                            $0                      $0
Missouri                                  $0                  $0    Wyoming                               $0                      $0
Montana                                   $0                  $0

                PERFORMANCE MEASURE 15C                July through December 2004              January through June 2005
                                 TOTAL                            $900                                     $0



                                                                                                                           25
Δ      A P P E N D I X              ~     D     





            Individual Project Results for All Projects in the Last Two Reporting Periods

The following tables provide the results for each performance measure for each of the 57 Senior Medicare Patrol Projects. Each table
provides the performance measure results for the two 6-month reporting periods.

Please note that performance measure 9, “Estimated number of people reached by media events,” is calculated by adding the average
number of viewers reached each time an advertisement is aired and the number of readers reached for each individual printed
advertisement.




                                                                                                                                  26
 A    P    P E N D      I X ~     D      




                              Alabama - Alabama Commission on Aging, Montgomery                                            In operation since: July 1999

                                                                                                           July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                          December 2004    June 2005      6 Months
                                               OUTPUT MEASURES

     1      Number of training sessions conducted to train new volunteers                                            20                7                 -13
     2      Number of new volunteers trained                                                                        116               51                 -65
     3      Number of media events conducted                                                                         76              136                   60
     4      Number of community education events conducted                                                          254              279                   25
                                              OUTCOME MEASURES

     5      Number of volunteers who, for the first time, conducted activities to educate beneficiaries              35               17                 -18
     6      Number of group sessions for beneficiaries led by volunteers                                            164              121                 -43
     7      Number of beneficiaries who attended group sessions led by volunteers                                 11,032           2,929              -8,103
     8      Number of one-on-one sessions held between beneficiaries and volunteers                                 961              940                 -21
  7+8       Total number of beneficiaries educated                                                                11,993           3,869              -8,124
     9      Estimated number of people reached by media events                                                 1,053,768        108,925             -944,843
     10     Estimated number of people reached by community education events                                      72,941          29,748             -43,193
     11     Number of complaints received attributable to the project                                               612               38               -574
     12     Number of complaints referred for followup                                                              100                2                 -98
     13     Number of complaints that resulted in some action                                                        20                2                 -18
     14     Medicare funds recovered attributable to the project                                                     $0               $0                   $0
   15A      Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
   15B      Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
   15C      Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                $0               $0                   $0
 14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                              27

A    P       P E N D    I X ~     D      




                              Alaska - Alaska State Division of Senior Services, Anchorage                                    In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             2                5                   3
         2     Number of new volunteers trained                                                                        127               30               -97
         3     Number of media events conducted                                                                          2                1                   -1
         4     Number of community education events conducted                                                           15                5               -10
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries             127               30               -97
         6     Number of group sessions for beneficiaries led by volunteers                                             10               10                    0
         7     Number of beneficiaries who attended group sessions led by volunteers                                   100               40               -60
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  25               20                   -5
     7+8       Total number of beneficiaries educated                                                                  125               60               -65
         9     Estimated number of people reached by media events                                                   500,000        500,000                     0
      10       Estimated number of people reached by community education events                                        200              185               -15
      11       Number of complaints received attributable to the project                                                 3                2                   -1
      12       Number of complaints referred for followup                                                                0                0                    0
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 28

A    P       P E N D    I X ~     D      


                              Arizona - Arizona Department of Economic Security, Phoenix
                                                                                                                              In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                            74               15               -59
         2     Number of new volunteers trained                                                                         30               33                    3
         3     Number of media events conducted                                                                         28               14               -14
         4     Number of community education events conducted                                                           97               24               -73
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              29               15               -14
         6     Number of group sessions for beneficiaries led by volunteers                                             24               24                    0
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,140           2,287             1,147
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  30                0               -30
     7+8       Total number of beneficiaries educated                                                                 1,170           2,287             1,117
         9     Estimated number of people reached by media events                                                    10,333          52,802            42,469
      10       Estimated number of people reached by community education events                                       9,319           2,598            -6,721
      11       Number of complaints received attributable to the project                                                41                6               -35
      12       Number of complaints referred for followup                                                                2                3                    1
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0



                                                                                                                                                 29

A    P       P E N D    I X ~     D      



                         Arkansas - Arkansas Division of Aging and Adult Services, Little Rock
                                                                                                                              In operation since: July 2002

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             9                4                   -5
         2     Number of new volunteers trained                                                                         54               45                   -9
         3     Number of media events conducted                                                                         19               19                    0
         4     Number of community education events conducted                                                           26               42                   16
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              25               29                    4
         6     Number of group sessions for beneficiaries led by volunteers                                             45               59                   14
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,029           1,228               199
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  57               60                   3
     7+8       Total number of beneficiaries educated                                                                 1,086           1,288               202
         9     Estimated number of people reached by media events                                                   257,200        882,388             625,188
      10       Estimated number of people reached by community education events                                       2,771           5,305              2,534
      11       Number of complaints received attributable to the project                                                50               20                -30
      12       Number of complaints referred for followup                                                               22                7                -15
      13       Number of complaints that resulted in some action                                                         3                4                   1
      14       Medicare funds recovered attributable to the project                                                     $0           $4,856             $4,856
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                   $952               $0              -$952
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                 $952               $0              -$952
    14 + 15    Total savings attributable to the project                                                              $952           $4,856             $3,904


                                                                                                                                                 30

A    P       P E N D      I X ~     D      




             California - California Health Insurance Counseling Advocacy Programs Association, Sacramento                      In operation since: July 1997

                                                                                                                July through January through Change in Last
                                               PERFORMANCE MEASURES
                                                                                                               December 2004    June 2005      6 Months
                                                   OUTPUT MEASURES

         1       Number of training sessions conducted to train new volunteers                                             2               22                   20
         2       Number of new volunteers trained                                                                         70              357               287
         3       Number of media events conducted                                                                         17               36                   19
         4       Number of community education events conducted                                                           64              176               112
                                                  OUTCOME MEASURES

         5       Number of volunteers who, for the first time, conducted activities to educate beneficiaries              22               17                   -5
         6       Number of group sessions for beneficiaries led by volunteers                                             53              120                   67
         7       Number of beneficiaries who attended group sessions led by volunteers                                  1,590           3,424             1,834
         8       Number of one-on-one sessions held between beneficiaries and volunteers                                  68               38               -30
     7+8         Total number of beneficiaries educated                                                                 1,658           3,462             1,804
         9       Estimated number of people reached by media events                                                 4,413,000       5,500,000         1,087,000
      10         Estimated number of people reached by community education events                                       5,894           5,023              -871
      11         Number of complaints received attributable to the project                                                68               55               -13
      12         Number of complaints referred for followup                                                               38               55                   17
      13         Number of complaints that resulted in some action                                                         3                5                   2
      14         Medicare funds recovered attributable to the project                                                     $0           $6,552            $6,552
     15A         Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B         Savings to beneficiaries attributable to the project                                                  $5,355          $5,355                   $0
     15C         Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                  $5,355          $5,355                   $0
    14 + 15      Total savings attributable to the project                                                             $5,355        $11,907             $6,552


                                                                                                                                                   31

A    P       P E N D    I X ~     D       




                                      Colorado - Colorado Division of Insurance, Denver                                       In operation since: July 1999

                                                                                                              July through January through Change in Last
                                              PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             0                4                   4
         2     Number of new volunteers trained                                                                          0               19                   19
         3     Number of media events conducted                                                                         33                6                -27
         4     Number of community education events conducted                                                           35               17               -18
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               3                4                   1
         6     Number of group sessions for beneficiaries led by volunteers                                             46               66                   20
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,637           1,879               242
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  39               24               -15
     7+8       Total number of beneficiaries educated                                                                 1,676           1,903               227
         9     Estimated number of people reached by media events                                                   489,000        460,300             -28,700
      10       Estimated number of people reached by community education events                                       1,439           1,328              -111
      11       Number of complaints received attributable to the project                                                 5                4                   -1
      12       Number of complaints referred for followup                                                                1                1                    0
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0            $339               $339
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0            $339               $339
    14 + 15    Total savings attributable to the project                                                                $0            $339               $339


                                                                                                                                                 32

A    P       P E N D    I X ~     D      




                           Connecticut - Connecticut Department of Social Services, Hartford                                  In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             4                5                   1
         2     Number of new volunteers trained                                                                         50               16                -34
         3     Number of media events conducted                                                                         12               17                    5
         4     Number of community education events conducted                                                           78               40                -38
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               3                4                    1
         6     Number of group sessions for beneficiaries led by volunteers                                             10                7                   -3
         7     Number of beneficiaries who attended group sessions led by volunteers                                   482              163               -319
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  16                5                -11
     7+8       Total number of beneficiaries educated                                                                  498              168               -330
         9     Estimated number of people reached by media events                                                   593,000        768,000             175,000
      10       Estimated number of people reached by community education events                                       4,187           7,774              3,587
      11       Number of complaints received attributable to the project                                                18                5                -13
      12       Number of complaints referred for followup                                                                3                4                    1
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0



                                                                                                                                                 33

A    P       P E N D    I X ~     D      



                       Delaware - Delaware Department of Health and Social Services, New Castle
                                                                                                                              In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                2                    1
         2     Number of new volunteers trained                                                                          2                4                    2
         3     Number of media events conducted                                                                         11                5                   -6
         4     Number of community education events conducted                                                            8               13                    5
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               4                3                   -1
         6     Number of group sessions for beneficiaries led by volunteers                                             64               35                 -29
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,179           3,462              2,283
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  16              170                154
     7+8       Total number of beneficiaries educated                                                                 1,195           3,632              2,437
         9     Estimated number of people reached by media events                                                   600,000        200,000             -400,000
      10       Estimated number of people reached by community education events                                       2,827           1,550              -1,277
      11       Number of complaints received attributable to the project                                                16               28                   12
      12       Number of complaints referred for followup                                                                4               11                    7
      13       Number of complaints that resulted in some action                                                         0               28                   28
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0           $1,583             $1,583
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0           $1,583             $1,583
    14 + 15    Total savings attributable to the project                                                                $0           $1,583             $1,583


                                                                                                                                                 34

A    P       P E N D    I X ~     D      


                  District of Columbia - District of Columbia-The AARP Foundation, Washington, DC
                                                                                                                              In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                2                   1
         2     Number of new volunteers trained                                                                          5                7                    2
         3     Number of media events conducted                                                                          2                0                   -2
         4     Number of community education events conducted                                                           13               10                   -3
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0                1                    1
         6     Number of group sessions for beneficiaries led by volunteers                                             19               25                    6
         7     Number of beneficiaries who attended group sessions led by volunteers                                   645            1,015                370
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   0                0                   0
     7+8       Total number of beneficiaries educated                                                                  645            1,015                370
         9     Estimated number of people reached by media events                                                   690,000               0            -690,000
      10       Estimated number of people reached by community education events                                       9,860           3,375              -6,485
      11       Number of complaints received attributable to the project                                                48               10                 -38
      12       Number of complaints referred for followup                                                                1                0                   -1
      13       Number of complaints that resulted in some action                                                         1                0                   -1
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0



                                                                                                                                                 35

A    P       P E N D    I X ~     D      


                     District of Columbia - District of Columbia-Friendship House, Washington, DC
                                                                                                                              In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             5                5                   0
         2     Number of new volunteers trained                                                                          3                6                    3
         3     Number of media events conducted                                                                          5                3                   -2
         4     Number of community education events conducted                                                           16               19                   3
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               2                4                    2
         6     Number of group sessions for beneficiaries led by volunteers                                              7                8                    1
         7     Number of beneficiaries who attended group sessions led by volunteers                                   400              268               -132
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  40               40                   0
     7+8       Total number of beneficiaries educated                                                                  440              308               -132
         9     Estimated number of people reached by media events                                                    17,000        375,000             358,000
      10       Estimated number of people reached by community education events                                        650            3,325              2,675
      11       Number of complaints received attributable to the project                                                 5               10                   5
      12       Number of complaints referred for followup                                                                0               10                   10
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0



                                                                                                                                                 36

A    P       P E N D    I X ~     D      


                             Florida - Tampa Bay Regional Planning Council, St. Petersburg
                                                                                                                              In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                2                   1
         2     Number of new volunteers trained                                                                          4                8                    4
         3     Number of media events conducted                                                                         38                5                -33
         4     Number of community education events conducted                                                           16               65                   49
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               7                7                    0
         6     Number of group sessions for beneficiaries led by volunteers                                             33               51                   18
         7     Number of beneficiaries who attended group sessions led by volunteers                                   976            3,999              3,023
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   2                1                   -1
     7+8       Total number of beneficiaries educated                                                                  978            4,000              3,022
         9     Estimated number of people reached by media events                                                 1,773,533        533,300         -1,240,233
      10       Estimated number of people reached by community education events                                       1,146           3,976              2,830
      11       Number of complaints received attributable to the project                                                11               13                   2
      12       Number of complaints referred for followup                                                                1                5                    4
      13       Number of complaints that resulted in some action                                                         0                1                   1
      14       Medicare funds recovered attributable to the project                                                     $0         $27,668             $27,668
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0         $27,668             $27,668



                                                                                                                                                 37

A    P       P E N D    I X ~     D      


                                      Georgia - Atlanta Regional Commission, Atlanta
                                                                                                                              In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             3                0                   -3
         2     Number of new volunteers trained                                                                          5                0                   -5
         3     Number of media events conducted                                                                         18               31                   13
         4     Number of community education events conducted                                                            7                3                   -4
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               5                0                   -5
         6     Number of group sessions for beneficiaries led by volunteers                                             46              228               182
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,323           5,906             4,583
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 266              552              286
     7+8       Total number of beneficiaries educated                                                                 1,589           6,458             4,869
         9     Estimated number of people reached by media events                                                   109,500        186,302             76,802
      10       Estimated number of people reached by community education events                                        596              212              -384
      11       Number of complaints received attributable to the project                                                16                9                   -7
      12       Number of complaints referred for followup                                                                5                4                   -1
      13       Number of complaints that resulted in some action                                                         1                1                   0
      14       Medicare funds recovered attributable to the project                                                    $45            $338              $293
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                               $45            $338              $293



                                                                                                                                                 38

A    P       P E N D    I X ~     D       


                                      Georgia - Department of Human Resources, Atlanta
                                                                                                                              In operation since: July 1999

                                                                                                              July through January through Change in Last
                                              PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             6               28                   22
         2     Number of new volunteers trained                                                                         30              118                   88
         3     Number of media events conducted                                                                         24               78                   54
         4     Number of community education events conducted                                                           72              207               135
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               8              402               394
         6     Number of group sessions for beneficiaries led by volunteers                                             15              188               173
         7     Number of beneficiaries who attended group sessions led by volunteers                                   415            4,694              4,279
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  84              202               118
     7+8       Total number of beneficiaries educated                                                                  499            4,896              4,397
         9     Estimated number of people reached by media events                                                   582,186       1,020,801            438,615
      10       Estimated number of people reached by community education events                                       6,494           7,369               875
      11       Number of complaints received attributable to the project                                                18               48                   30
      12       Number of complaints referred for followup                                                               12               10                   -2
      13       Number of complaints that resulted in some action                                                         6                1                   -5
      14       Medicare funds recovered attributable to the project                                                     $0            $186               $186
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0            $186               $186



                                                                                                                                                 39

A    P       P E N D    I X ~     D      


                                    Hawaii - Hawaii Executive Office of Aging, Honolulu
                                                                                                                              In operation since: July 1997

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             2                4                   2
         2     Number of new volunteers trained                                                                         12                5                   -7
         3     Number of media events conducted                                                                          9                5                   -4
         4     Number of community education events conducted                                                           14                6                   -8
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0                0                    0
         6     Number of group sessions for beneficiaries led by volunteers                                             25               25                    0
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,611           1,600                 -11
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   0                0                   0
     7+8       Total number of beneficiaries educated                                                                 1,611           1,600                 -11
         9     Estimated number of people reached by media events                                                   420,000        200,000             -220,000
      10       Estimated number of people reached by community education events                                      10,500           5,000              -5,500
      11       Number of complaints received attributable to the project                                                 0               25                   25
      12       Number of complaints referred for followup                                                                0                0                    0
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0



                                                                                                                                                 40

A    P       P E N D    I X ~     D      


                                      Idaho - Idaho Medicare Watch Partnership, Boise
                                                                                                                              In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             8               10                   2
         2     Number of new volunteers trained                                                                          7               23                   16
         3     Number of media events conducted                                                                         35               29                   -6
         4     Number of community education events conducted                                                           95              127                   32
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               3                3                    0
         6     Number of group sessions for beneficiaries led by volunteers                                            147               27               -120
         7     Number of beneficiaries who attended group sessions led by volunteers                                  4,478             780             -3,698
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 418              759               341
     7+8       Total number of beneficiaries educated                                                                 4,896           1,539             -3,357
         9     Estimated number of people reached by media events                                                   308,502        627,929             319,427
      10       Estimated number of people reached by community education events                                       5,031           9,568              4,537
      11       Number of complaints received attributable to the project                                               626              262               -364
      12       Number of complaints referred for followup                                                                1                3                    2
      13       Number of complaints that resulted in some action                                                         1                0                   -1
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                 $31,257        $23,614             -$7,643
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                               $31,257        $23,614             -$7,643
    14 + 15    Total savings attributable to the project                                                            $31,257        $23,614             -$7,643



                                                                                                                                                 41

A    P       P E N D    I X ~     D      




                                    Illinois - Suburban Area Agency on Aging, Oak Park                                        In operation since: July 1997

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             4               18                   14
         2     Number of new volunteers trained                                                                         16               56                   40
         3     Number of media events conducted                                                                         32               93                   61
         4     Number of community education events conducted                                                           49              143                   94
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               7               41                   34
         6     Number of group sessions for beneficiaries led by volunteers                                             73              182               109
         7     Number of beneficiaries who attended group sessions led by volunteers                                  2,968           5,344             2,376
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   6                7                    1
     7+8       Total number of beneficiaries educated                                                                 2,974           5,351             2,377
         9     Estimated number of people reached by media events                                                 2,221,000       8,893,230         6,672,230
      10       Estimated number of people reached by community education events                                      11,303           6,980            -4,323
      11       Number of complaints received attributable to the project                                                 3                5                    2
      12       Number of complaints referred for followup                                                                1                5                    4
      13       Number of complaints that resulted in some action                                                         0                2                   2
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0            $200              $200
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0            $200              $200
    14 + 15    Total savings attributable to the project                                                                $0            $200              $200


                                                                                                                                                 42

A    P       P E N D    I X ~     D      




                     Indiana - Indiana Division of Disability, Aging and Rehabilitation, Indianapolis                         In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             9               22                   13
         2     Number of new volunteers trained                                                                         63              107                   44
         3     Number of media events conducted                                                                         16                6                -10
         4     Number of community education events conducted                                                           75               93                   18
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               6                2                   -4
         6     Number of group sessions for beneficiaries led by volunteers                                             19               79                   60
         7     Number of beneficiaries who attended group sessions led by volunteers                                   302            2,015             1,713
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 240              252                   12
     7+8       Total number of beneficiaries educated                                                                  542            2,267             1,725
         9     Estimated number of people reached by media events                                                    88,769           4,800            -83,969
      10       Estimated number of people reached by community education events                                      30,650          14,127            -16,523
      11       Number of complaints received attributable to the project                                                10                0               -10
      12       Number of complaints referred for followup                                                                2                0                   -2
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 43

A    P       P E N D    I X ~     D      




                                      Iowa - Iowa Department of Elder Affairs, Waterloo                                       In operation since: July 1997

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             7               12                   5
         2     Number of new volunteers trained                                                                         32               14                 -18
         3     Number of media events conducted                                                                       2,249           2,095               -154
         4     Number of community education events conducted                                                          132               94                 -38
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              32               12                 -20
         6     Number of group sessions for beneficiaries led by volunteers                                            241              314                   73
         7     Number of beneficiaries who attended group sessions led by volunteers                                  7,973          23,797             15,824
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  52               49                   -3
     7+8       Total number of beneficiaries educated                                                                 8,025          23,846             15,821
         9     Estimated number of people reached by media events                                                 1,896,846       1,142,908            -753,938
      10       Estimated number of people reached by community education events                                       9,732           7,127              -2,605
      11       Number of complaints received attributable to the project                                                52               49                   -3
      12       Number of complaints referred for followup                                                               19               15                   -4
      13       Number of complaints that resulted in some action                                                         3               12                   9
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                 $17,109              $0            -$17,109
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                               $17,109              $0            -$17,109
    14 + 15    Total savings attributable to the project                                                            $17,109              $0            -$17,109


                                                                                                                                                 44

A    P       P E N D    I X ~     D      




                                       Kansas - Via Christi Foundation, Inc., Wichita                                         In operation since: July 2003

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             0                0                   0
         2     Number of new volunteers trained                                                                          0                0                    0
         3     Number of media events conducted                                                                          6                4                   -2
         4     Number of community education events conducted                                                            2                1                   -1
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0                0                    0
         6     Number of group sessions for beneficiaries led by volunteers                                              0                0                    0
         7     Number of beneficiaries who attended group sessions led by volunteers                                     0                0                    0
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  15               24                   9
     7+8       Total number of beneficiaries educated                                                                   15               24                    9
         9     Estimated number of people reached by media events                                                    27,500          22,000            -5,500
      10       Estimated number of people reached by community education events                                         80              200               120
      11       Number of complaints received attributable to the project                                                 1                0                   -1
      12       Number of complaints referred for followup                                                                1                0                   -1
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 45

A    P       P E N D    I X ~     D      




                    Kentucky - Kentucky Association of Senior Service Corps Programs, Louisville                              In operation since: July 2001

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             9               12                   3
         2     Number of new volunteers trained                                                                          8               45                   37
         3     Number of media events conducted                                                                         61               97                   36
         4     Number of community education events conducted                                                           38              103                   65
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               6               42                   36
         6     Number of group sessions for beneficiaries led by volunteers                                            147              132                -15
         7     Number of beneficiaries who attended group sessions led by volunteers                                  4,497           4,461                -36
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                1,325           2,641              1,316
     7+8       Total number of beneficiaries educated                                                                 5,822           7,102              1,280
         9     Estimated number of people reached by media events                                                   879,961       1,700,797            820,836
      10       Estimated number of people reached by community education events                                       3,354           5,289              1,935
      11       Number of complaints received attributable to the project                                                22               34                   12
      12       Number of complaints referred for followup                                                                3                3                    0
      13       Number of complaints that resulted in some action                                                         0                1                   1
      14       Medicare funds recovered attributable to the project                                                     $0            $665               $665
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0            $665               $665


                                                                                                                                                 46

 A    P    P E N D     I X ~     D      




                             Louisiana - Vernon Parish Council on Aging, Inc., Leesville                                   In operation since: July 2000

                                                                                                           July through January through Change in Last
                                            PERFORMANCE MEASURES
                                                                                                          December 2004    June 2005      6 Months
                                              OUTPUT MEASURES

      1     Number of training sessions conducted to train new volunteers                                             3                3                   0
      2     Number of new volunteers trained                                                                         76               95                   19
      3     Number of media events conducted                                                                         49               44                   -5
      4     Number of community education events conducted                                                           69               78                   9
                                             OUTCOME MEASURES

      5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              41               38                   -3
      6     Number of group sessions for beneficiaries led by volunteers                                             75               54               -21
      7     Number of beneficiaries who attended group sessions led by volunteers                                  1,482           1,112              -370
      8     Number of one-on-one sessions held between beneficiaries and volunteers                                 399              315               -84
     7+8    Total number of beneficiaries educated                                                                 1,881           1,427              -454
      9     Estimated number of people reached by media events                                                    31,200        102,200             71,000
     10     Estimated number of people reached by community education events                                       2,950           4,019             1,069
     11     Number of complaints received attributable to the project                                                 9               11                   2
     12     Number of complaints referred for followup                                                                0                1                    1
     13     Number of complaints that resulted in some action                                                         0                1                   1
     14     Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A    Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B    Savings to beneficiaries attributable to the project                                                     $0            $925              $925
     15C    Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                $0            $925              $925
 14 + 15    Total savings attributable to the project                                                                $0            $925              $925


                                                                                                                                              47

 A    P    P E N D     I X ~     D      




           Maine - Maine Department of Human Services' Bureau of Elder and Adult Services, Augusta                         In operation since: July 1999

                                                                                                           July through January through Change in Last
                                            PERFORMANCE MEASURES
                                                                                                          December 2004    June 2005      6 Months
                                              OUTPUT MEASURES

      1     Number of training sessions conducted to train new volunteers                                             5                9                   4
      2     Number of new volunteers trained                                                                         23               17                   -6
      3     Number of media events conducted                                                                        117               94                 -23
      4     Number of community education events conducted                                                           84               98                   14
                                             OUTCOME MEASURES

      5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               5                1                   -4
      6     Number of group sessions for beneficiaries led by volunteers                                            137               94                 -43
      7     Number of beneficiaries who attended group sessions led by volunteers                                  2,807           2,399               -408
      8     Number of one-on-one sessions held between beneficiaries and volunteers                                 436              710                274
     7+8    Total number of beneficiaries educated                                                                 3,243           3,109               -134
      9     Estimated number of people reached by media events                                                 1,467,356       1,144,895            -322,461
     10     Estimated number of people reached by community education events                                      13,541           7,235              -6,306
     11     Number of complaints received attributable to the project                                                 1                0                   -1
     12     Number of complaints referred for followup                                                                0                1                    1
     13     Number of complaints that resulted in some action                                                         1                1                   0
     14     Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A    Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B    Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C    Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                $0               $0                   $0
 14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                              48

A    P       P E N D    I X ~     D      




                                      Maryland - Maryland Office on Aging, Baltimore                                          In operation since: July 1997

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                            24               25                   1
         2     Number of new volunteers trained                                                                        407              456                   49
         3     Number of media events conducted                                                                        427               38              -389
         4     Number of community education events conducted                                                          329              181              -148
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               1                0                   -1
         6     Number of group sessions for beneficiaries led by volunteers                                              1                0                   -1
         7     Number of beneficiaries who attended group sessions led by volunteers                                     0                0                    0
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                1,318           1,190              -128
     7+8       Total number of beneficiaries educated                                                                 1,318           1,190              -128
         9     Estimated number of people reached by media events                                                   104,100        183,997             79,897
      10       Estimated number of people reached by community education events                                       5,766           5,801                   35
      11       Number of complaints received attributable to the project                                               407              403                   -4
      12       Number of complaints referred for followup                                                                2               13                   11
      13       Number of complaints that resulted in some action                                                         1                0                   -1
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 49

A    P       P E N D    I X ~     D      




                                 Massachusetts - Elder Services of Merrimack, Lawrence                                        In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             7                2                   -5
         2     Number of new volunteers trained                                                                         77               18                 -59
         3     Number of media events conducted                                                                        201              179                 -22
         4     Number of community education events conducted                                                          503              334               -169
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               3                0                   -3
         6     Number of group sessions for beneficiaries led by volunteers                                            205              115                 -90
         7     Number of beneficiaries who attended group sessions led by volunteers                                     0                0                   0
         8     Number of one-on-one sessions held between beneficiaries and volunteers                               13,487           5,676              -7,811
     7+8       Total number of beneficiaries educated                                                                13,487           5,676              -7,811
         9     Estimated number of people reached by media events                                                 3,794,987       3,608,672            -186,315
      10       Estimated number of people reached by community education events                                      25,437          12,949             -12,488
      11       Number of complaints received attributable to the project                                               522              382               -140
      12       Number of complaints referred for followup                                                                0                0                    0
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 50

A    P       P E N D    I X ~     D      




                          Michigan - Area Agencies on Aging Association of Michigan, Lansing                                  In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             5               11                    6
         2     Number of new volunteers trained                                                                         22              226               204
         3     Number of media events conducted                                                                          1                3                    2
         4     Number of community education events conducted                                                            8                6                   -2
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0                0                    0
         6     Number of group sessions for beneficiaries led by volunteers                                             23               17                   -6
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,145             654               -491
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  13               27                   14
     7+8       Total number of beneficiaries educated                                                                 1,158             681               -477
         9     Estimated number of people reached by media events                                                    10,000        215,000             205,000
      10       Estimated number of people reached by community education events                                        423              799               376
      11       Number of complaints received attributable to the project                                                 0                0                    0
      12       Number of complaints referred for followup                                                                0                0                    0
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 51

 A    P    P E N D     I X ~     D       




                                     Minnesota - Minnesota Board of Aging, St. Paul                                        In operation since: July 1997

                                                                                                           July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                          December 2004    June 2005      6 Months
                                               OUTPUT MEASURES

      1     Number of training sessions conducted to train new volunteers                                            16              132                116
      2     Number of new volunteers trained                                                                         44               91                   47
      3     Number of media events conducted                                                                          2                0                   -2
      4     Number of community education events conducted                                                           65               15                 -50
                                              OUTCOME MEASURES

      5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               8               18                   10
      6     Number of group sessions for beneficiaries led by volunteers                                              7               18                   11
      7     Number of beneficiaries who attended group sessions led by volunteers                                   251              150               -101
      8     Number of one-on-one sessions held between beneficiaries and volunteers                                  11               32                   21
     7+8    Total number of beneficiaries educated                                                                  262              182                 -80
      9     Estimated number of people reached by media events                                                     5,500               0              -5,500
     10     Estimated number of people reached by community education events                                       2,072             248              -1,824
     11     Number of complaints received attributable to the project                                                31               47                   16
     12     Number of complaints referred for followup                                                               23               24                    1
     13     Number of complaints that resulted in some action                                                         1               16                   15
     14     Medicare funds recovered attributable to the project                                                     $0            $216                $216
     15A    Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B    Savings to beneficiaries attributable to the project                                                $102,140          $4,344            -$97,796
     15C    Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                           $102,140          $4,344            -$97,796
 14 + 15    Total savings attributable to the project                                                           $102,140          $4,560            -$97,579


                                                                                                                                              52

A    P       P E N D    I X ~     D      




                            Mississippi - Mississippi Department of Human Services, Jackson                                   In operation since: July 2000

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                            15                6                   -9
         2     Number of new volunteers trained                                                                         27               19                   -8
         3     Number of media events conducted                                                                        627            1,009                382
         4     Number of community education events conducted                                                           76               83                    7
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              15               19                    4
         6     Number of group sessions for beneficiaries led by volunteers                                            106               62                 -44
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,945           2,227                282
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 307              998                691
     7+8       Total number of beneficiaries educated                                                                 2,252           3,225                973
         9     Estimated number of people reached by media events                                                   391,065        280,052             -111,013
      10       Estimated number of people reached by community education events                                       4,917           8,962              4,045
      11       Number of complaints received attributable to the project                                                59               23                 -36
      12       Number of complaints referred for followup                                                               14                0                 -14
      13       Number of complaints that resulted in some action                                                         0               18                   18
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0            $298                $298
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0            $298                $298
    14 + 15    Total savings attributable to the project                                                                $0            $298                $298


                                                                                                                                                 53

A    P       P E N D    I X ~     D      





                                Missouri - District III Area Agency on Aging, Warrensburg                                     In operation since: July 1997

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                4                   3
         2     Number of new volunteers trained                                                                          6               32                   26
         3     Number of media events conducted                                                                         13                8                   -5
         4     Number of community education events conducted                                                           30               15                 -15
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               6               32                   26
         6     Number of group sessions for beneficiaries led by volunteers                                              9               54                   45
         7     Number of beneficiaries who attended group sessions led by volunteers                                   191              860                669
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 110               82                 -28
     7+8       Total number of beneficiaries educated                                                                  301              942                641
         9     Estimated number of people reached by media events                                                   300,000          25,000            -275,000
      10       Estimated number of people reached by community education events                                       2,400           2,500                100
      11       Number of complaints received attributable to the project                                                 8                5                   -3
      12       Number of complaints referred for followup                                                                3                2                   -1
      13       Number of complaints that resulted in some action                                                         2                0                   -2
      14       Medicare funds recovered attributable to the project                                                    $58               $0               -$58
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                               $58               $0               -$58


                                                                                                                                                 54

A    P       P E N D    I X ~     D      




                                       Montana - Missoula Aging Services, Missoula                                            In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             9                5                   -4
         2     Number of new volunteers trained                                                                         48                5                 -43
         3     Number of media events conducted                                                                        457            5,001              4,544
         4     Number of community education events conducted                                                           27               65                   38
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               8                1                   -7
         6     Number of group sessions for beneficiaries led by volunteers                                             98               53                 -45
         7     Number of beneficiaries who attended group sessions led by volunteers                                  3,293           1,226              -2,067
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                1,699             499              -1,200
     7+8       Total number of beneficiaries educated                                                                 4,992           1,725              -3,267
         9     Estimated number of people reached by media events                                                   730,757        615,400             -115,357
      10       Estimated number of people reached by community education events                                       4,360           3,137              -1,223
      11       Number of complaints received attributable to the project                                                50               45                   -5
      12       Number of complaints referred for followup                                                               50                1                 -49
      13       Number of complaints that resulted in some action                                                         5                0                   -5
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                   $420               $0              -$420
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                 $420               $0              -$420
    14 + 15    Total savings attributable to the project                                                              $420               $0              -$420


                                                                                                                                                 55

A    P       P E N D    I X ~     D      




                        Nebraska - Nebraska Department of Health and Human Services, Lincoln                                  In operation since: July 2000

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             4               12                   8
         2     Number of new volunteers trained                                                                         19               50                   31
         3     Number of media events conducted                                                                         24               23                   -1
         4     Number of community education events conducted                                                           68               69                   1
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              29               18                 -11
         6     Number of group sessions for beneficiaries led by volunteers                                            108               50                 -58

         7     Number of beneficiaries who attended group sessions led by volunteers                                  3,350           1,254              -2,096
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 357              164               -193
     7+8       Total number of beneficiaries educated                                                                 3,707           1,418              -2,289
         9     Estimated number of people reached by media events                                                   624,811        429,195             -195,616
      10       Estimated number of people reached by community education events                                       9,366          13,791              4,425
      11       Number of complaints received attributable to the project                                                12               12                   0
      12       Number of complaints referred for followup                                                                7                6                   -1
      13       Number of complaints that resulted in some action                                                         6                4                   -2
      14       Medicare funds recovered attributable to the project                                                   $534               $0              -$534
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                   $134              $15              -$119
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                 $134              $15              -$119
    14 + 15    Total savings attributable to the project                                                              $668              $15              -$653

                                                                                                                                                 56

A    P       P E N D    I X ~     D      




                                 Nevada - Nevada Division of Aging Services, Las Vegas                                        In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             3                1                   -2
         2     Number of new volunteers trained                                                                          3                2                   -1
         3     Number of media events conducted                                                                          6                8                    2
         4     Number of community education events conducted                                                           17               35                   18
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               3                3                    0
         6     Number of group sessions for beneficiaries led by volunteers                                             11               13                    2
         7     Number of beneficiaries who attended group sessions led by volunteers                                   210              117                -93
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  65              241               176
     7+8       Total number of beneficiaries educated                                                                  275              358                   83
         9     Estimated number of people reached by media events                                                     6,000           4,500             -1,500
      10       Estimated number of people reached by community education events                                       4,070           3,870              -200
      11       Number of complaints received attributable to the project                                                11               45                   34
      12       Number of complaints referred for followup                                                                1                4                    3
      13       Number of complaints that resulted in some action                                                         1                0                   -1
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                   $200               $0             -$200
     15C       Other savings attributable to the project                                                              $900               $0             -$900
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                $1,100              $0            -$1,100
    14 + 15    Total savings attributable to the project                                                             $1,100              $0            -$1,100


                                                                                                                                                 57

A    P       P E N D    I X ~     D      




                   New Hampshire - New Hampshire Division of Elderly and Adult Services, Concord                              In operation since: July 1997

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             0                3                   3
         2     Number of new volunteers trained                                                                          3               32                   29
         3     Number of media events conducted                                                                         18                6                -12
         4     Number of community education events conducted                                                           78               32               -46
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               1               17                   16
         6     Number of group sessions for beneficiaries led by volunteers                                              7                7                    0
         7     Number of beneficiaries who attended group sessions led by volunteers                                   374              149              -225
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                1,881           1,548              -333
     7+8       Total number of beneficiaries educated                                                                 2,255           1,697              -558
         9     Estimated number of people reached by media events                                                   300,000        220,000             -80,000
      10       Estimated number of people reached by community education events                                      10,200             880             -9,320
      11       Number of complaints received attributable to the project                                                 5                3                   -2
      12       Number of complaints referred for followup                                                                0                1                    1
      13       Number of complaints that resulted in some action                                                         0                1                   1
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 58

A    P       P E N D    I X ~     D      




                 New Jersey - Jewish Family & Vocational Services of Middlesex County, Inc., Edison                           In operation since: July 2001

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             0                0                   0
         2     Number of new volunteers trained                                                                          0                0                    0
         3     Number of media events conducted                                                                          3                4                    1
         4     Number of community education events conducted                                                           12               39                   27
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0                0                    0
         6     Number of group sessions for beneficiaries led by volunteers                                             68                0                 -68
         7     Number of beneficiaries who attended group sessions led by volunteers                                  3,945               0              -3,945
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 250                0               -250
     7+8       Total number of beneficiaries educated                                                                 4,195               0              -4,195
         9     Estimated number of people reached by media events                                                   750,000          27,350            -722,650
      10       Estimated number of people reached by community education events                                       8,850           5,370              -3,480
      11       Number of complaints received attributable to the project                                                44                1                 -43
      12       Number of complaints referred for followup                                                                2                1                   -1
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 59

A    P       P E N D    I X ~     D      




                               New Mexico - New Mexico State Agency on Aging, Santa Fe                                        In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                            24               34                   10
         2     Number of new volunteers trained                                                                         14              100                   86
         3     Number of media events conducted                                                                         15               12                   -3
         4     Number of community education events conducted                                                          105               10                 -95
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              14               10                   -4
         6     Number of group sessions for beneficiaries led by volunteers                                             97               48                 -49
         7     Number of beneficiaries who attended group sessions led by volunteers                                  7,682           1,614              -6,068
         8     Number of one-on-one sessions held between beneficiaries and volunteers                               17,957          17,634               -323
     7+8       Total number of beneficiaries educated                                                                25,639          19,248              -6,391
         9     Estimated number of people reached by media events                                                   494,000        251,310             -242,690
      10       Estimated number of people reached by community education events                                      47,021           4,345             -42,676
      11       Number of complaints received attributable to the project                                              2,912           9,265              6,353
      12       Number of complaints referred for followup                                                               54               27                 -27
      13       Number of complaints that resulted in some action                                                        45               27                 -18
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0           $4,350             $4,350
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0           $4,350             $4,350
    14 + 15    Total savings attributable to the project                                                                $0           $4,350             $4,350


                                                                                                                                                 60

A    P       P E N D    I X ~     D      




                                  New York - New York State Office for the Aging, Albany                                      In operation since: July 1997

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                            28               41                   13
         2     Number of new volunteers trained                                                                        692              698                   6
         3     Number of media events conducted                                                                         17               26                    9
         4     Number of community education events conducted                                                           33               41                   8
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries             256               24               -232
         6     Number of group sessions for beneficiaries led by volunteers                                             59               63                    4
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,885           2,085               200
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                5,441             237             -5,204
     7+8       Total number of beneficiaries educated                                                                 7,326           2,322             -5,004
         9     Estimated number of people reached by media events                                                   252,000        435,000             183,000
      10       Estimated number of people reached by community education events                                       7,115          16,352              9,237
      11       Number of complaints received attributable to the project                                               200              217                   17
      12       Number of complaints referred for followup                                                               64               53                -11
      13       Number of complaints that resulted in some action                                                       200              203                   3
      14       Medicare funds recovered attributable to the project                                                 $22,686        $36,505             $13,819
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0           $1,604             $1,604
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0           $1,604             $1,604
    14 + 15    Total savings attributable to the project                                                            $22,686        $38,110             $15,424


                                                                                                                                                 61

A    P       P E N D    I X ~     D      




                                      North Carolina - Department of Insurance, Raleigh                                       In operation since: July 2003

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             2                4                    2
         2     Number of new volunteers trained                                                                          6              109               103
         3     Number of media events conducted                                                                         10               16                    6
         4     Number of community education events conducted                                                           27               60                   33
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               3                8                    5
         6     Number of group sessions for beneficiaries led by volunteers                                             15               23                    8
         7     Number of beneficiaries who attended group sessions led by volunteers                                   665              627               -38
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   8              102                   94
     7+8       Total number of beneficiaries educated                                                                  673              729                   56
         9     Estimated number of people reached by media events                                                    44,300          40,072            -4,228
      10       Estimated number of people reached by community education events                                       2,690           5,138             2,448
      11       Number of complaints received attributable to the project                                                21               34                   13
      12       Number of complaints referred for followup                                                                3               10                    7
      13       Number of complaints that resulted in some action                                                         0                2                   2
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 62

A    P       P E N D    I X ~     D      




                             North Dakota - Legal Assistance of North Dakota, Inc., Bismarck                                  In operation since: July 2003

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                2                   1
         2     Number of new volunteers trained                                                                          7                4                   -3
         3     Number of media events conducted                                                                         32               17               -15
         4     Number of community education events conducted                                                           14               15                   1
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               4                6                    2
         6     Number of group sessions for beneficiaries led by volunteers                                              4               25                   21
         7     Number of beneficiaries who attended group sessions led by volunteers                                   116            1,668             1,552
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  10                0               -10
     7+8       Total number of beneficiaries educated                                                                  126            1,668             1,542
         9     Estimated number of people reached by media events                                                    27,450        122,544             95,094
      10       Estimated number of people reached by community education events                                       2,585           3,810             1,225
      11       Number of complaints received attributable to the project                                                 0                0                   0
      12       Number of complaints referred for followup                                                                0                0                    0
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 63

A    P       P E N D    I X ~     D      


                                  Ohio - Central Ohio Area Agency on Aging, Columbus
                                                                                                                              In operation since: July 2002

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                0                   -1
         2     Number of new volunteers trained                                                                         18                0                 -18
         3     Number of media events conducted                                                                        175              130                 -45
         4     Number of community education events conducted                                                           50               50                   0
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              29                9                 -20
         6     Number of group sessions for beneficiaries led by volunteers                                             38               22                 -16
         7     Number of beneficiaries who attended group sessions led by volunteers                                   708              372               -336
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 628              156               -472
     7+8       Total number of beneficiaries educated                                                                 1,336             528               -808
         9     Estimated number of people reached by media events                                                   650,000        200,000             -450,000
      10       Estimated number of people reached by community education events                                      10,000           4,700              -5,300
      11       Number of complaints received attributable to the project                                                 3                6                   3
      12       Number of complaints referred for followup                                                                2                2                    0
      13       Number of complaints that resulted in some action                                                         1                1                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0



                                                                                                                                                 64

A    P       P E N D    I X ~     D      




                                             Ohio - Pro Seniors, Inc., Cincinnati                                             In operation since: July 2002

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             0                0                   0
         2     Number of new volunteers trained                                                                          0                0                    0
         3     Number of media events conducted                                                                        556              462                -94
         4     Number of community education events conducted                                                           15               25                   10
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0                1                    1
         6     Number of group sessions for beneficiaries led by volunteers                                             41               24                -17
         7     Number of beneficiaries who attended group sessions led by volunteers                                   958            1,756               798
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  22                6                -16
     7+8       Total number of beneficiaries educated                                                                  980            1,762               782
         9     Estimated number of people reached by media events                                                 3,123,413       4,009,213            885,800
      10       Estimated number of people reached by community education events                                       3,336           4,156               820
      11       Number of complaints received attributable to the project                                                 3               10                   7
      12       Number of complaints referred for followup                                                                0                4                    4
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0              $97               $97
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0              $97               $97
    14 + 15    Total savings attributable to the project                                                                $0              $97               $97


                                                                                                                                                 65

A    P       P E N D    I X ~     D      




                          Oklahoma - State of Oklahoma Insurance Department, Oklahoma City                                    In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                1                   0
         2     Number of new volunteers trained                                                                          4               10                    6
         3     Number of media events conducted                                                                        906                0               -906
         4     Number of community education events conducted                                                           47                6                 -41
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0                0                    0
         6     Number of group sessions for beneficiaries led by volunteers                                              0               22                   22
         7     Number of beneficiaries who attended group sessions led by volunteers                                     0              549                549
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   0                2                   2
     7+8       Total number of beneficiaries educated                                                                    0              551                551
         9     Estimated number of people reached by media events                                                   271,000               0            -271,000
      10       Estimated number of people reached by community education events                                       4,697           8,611              3,914
      11       Number of complaints received attributable to the project                                                13               12                   -1
      12       Number of complaints referred for followup                                                                4                6                    2
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 66

A    P       P E N D    I X ~     D      




                                      Oregon - Senior Medicare Patrol Project, Salem                                          In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             4               22                   18
         2     Number of new volunteers trained                                                                         50              128                   78
         3     Number of media events conducted                                                                          3                7                    4
         4     Number of community education events conducted                                                           39               89                   50
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              50                0               -50
         6     Number of group sessions for beneficiaries led by volunteers                                             41               74                   33
         7     Number of beneficiaries who attended group sessions led by volunteers                                   816            2,021             1,205
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                2,261           3,076               815
     7+8       Total number of beneficiaries educated                                                                 3,077           5,097             2,020
         9     Estimated number of people reached by media events                                                    23,000           7,292            -15,708
      10       Estimated number of people reached by community education events                                       4,615           4,216              -399
      11       Number of complaints received attributable to the project                                                 4               15                   11
      12       Number of complaints referred for followup                                                                0                3                    3
      13       Number of complaints that resulted in some action                                                         4                0                   -4
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 67

A    P       P E N D     I X ~     D      




               Pennsylvania - Center for Advocacy for the Rights and Interests of the Elderly, Philadelphia                    In operation since: July 1997

                                                                                                               July through January through Change in Last
                                              PERFORMANCE MEASURES
                                                                                                              December 2004    June 2005      6 Months
                                                  OUTPUT MEASURES

         1      Number of training sessions conducted to train new volunteers                                             1                2                   1
         2      Number of new volunteers trained                                                                          7               11                    4
         3      Number of media events conducted                                                                          4               15                   11
         4      Number of community education events conducted                                                           47               17                -30
                                                 OUTCOME MEASURES

         5      Number of volunteers who, for the first time, conducted activities to educate beneficiaries               3                5                    2
         6      Number of group sessions for beneficiaries led by volunteers                                            103              152                   49
         7      Number of beneficiaries who attended group sessions led by volunteers                                  2,967          11,115              8,148
         8      Number of one-on-one sessions held between beneficiaries and volunteers                                 137              520               383
     7+8        Total number of beneficiaries educated                                                                 3,104          11,635              8,531
         9      Estimated number of people reached by media events                                                   200,000       1,120,000            920,000
      10        Estimated number of people reached by community education events                                      11,443           1,588             -9,855
      11        Number of complaints received attributable to the project                                               148               99                -49
      12        Number of complaints referred for followup                                                                3                0                   -3
      13        Number of complaints that resulted in some action                                                         0                1                   1
      14        Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A        Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B        Savings to beneficiaries attributable to the project                                                  $8,422          $1,673            -$6,749
     15C        Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                 $8,422          $1,673            -$6,749
    14 + 15     Total savings attributable to the project                                                             $8,422          $1,673            -$6,749


                                                                                                                                                  68

 A    P    P E N D     I X ~     D      




                            Puerto Rico - Governor's Office of Elderly Affairs, San Juan                                   In operation since: July 1999

                                                                                                           July through January through Change in Last
                                            PERFORMANCE MEASURES
                                                                                                          December 2004    June 2005      6 Months
                                              OUTPUT MEASURES

      1     Number of training sessions conducted to train new volunteers                                             5                3                   -2
      2     Number of new volunteers trained                                                                         15                3                -12
      3     Number of media events conducted                                                                          6                3                   -3
      4     Number of community education events conducted                                                           29               34                    5
                                             OUTCOME MEASURES

      5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               1                1                    0
      6     Number of group sessions for beneficiaries led by volunteers                                             58               70                   12
      7     Number of beneficiaries who attended group sessions led by volunteers                                  1,794           2,646               852
      8     Number of one-on-one sessions held between beneficiaries and volunteers                                 324              420                   96
     7+8    Total number of beneficiaries educated                                                                 2,118           3,066               948
      9     Estimated number of people reached by media events                                                   425,000        375,000             -50,000
     10     Estimated number of people reached by community education events                                       2,151           1,079             -1,072
     11     Number of complaints received attributable to the project                                                65               23                -42
     12     Number of complaints referred for followup                                                               44               19                -25
     13     Number of complaints that resulted in some action                                                         9                7                   -2
     14     Medicare funds recovered attributable to the project                                                  $1,410           $296             -$1,115
     15A    Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B    Savings to beneficiaries attributable to the project                                                     $0            $100               $100
     15C    Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                $0            $100               $100
 14 + 15    Total savings attributable to the project                                                             $1,410           $396             -$1,015


                                                                                                                                              69

A    P       P E N D    I X ~     D      




                                        Rhode Island - Aging 2000, Inc., Providence                                           In operation since: July 1997

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                0                   -1
         2     Number of new volunteers trained                                                                          2                0                   -2
         3     Number of media events conducted                                                                       1,227           1,480               253
         4     Number of community education events conducted                                                            6               12                   6
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               2                0                   -2
         6     Number of group sessions for beneficiaries led by volunteers                                             10               15                    5
         7     Number of beneficiaries who attended group sessions led by volunteers                                   212              430               218
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   0                0                   0
     7+8       Total number of beneficiaries educated                                                                  212              430               218
         9     Estimated number of people reached by media events                                                 7,000,000       6,000,000        -1,000,000
      10       Estimated number of people reached by community education events                                      11,000           9,000            -2,000
      11       Number of complaints received attributable to the project                                                 5                4                   -1
      12       Number of complaints referred for followup                                                                4                0                   -4
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 70

A    P       P E N D    I X ~     D      




                         South Carolina - Department of Health and Human Services, Columbia                                   In operation since: July 2000

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                4                    3
         2     Number of new volunteers trained                                                                          2                4                    2
         3     Number of media events conducted                                                                         13               16                    3
         4     Number of community education events conducted                                                           24              104                   80
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0                0                    0
         6     Number of group sessions for beneficiaries led by volunteers                                             64                0               -64
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,780               0            -1,780
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 100              127                   27
     7+8       Total number of beneficiaries educated                                                                 1,880             127            -1,753
         9     Estimated number of people reached by media events                                                    16,729          46,800            30,071
      10       Estimated number of people reached by community education events                                       4,207          12,280             8,073
      11       Number of complaints received attributable to the project                                                 2                2                    0
      12       Number of complaints referred for followup                                                                2                2                    0
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 71

A    P       P E N D    I X ~     D      




                            South Dakota - East River Legal Services Corporation, Sioux Falls                                 In operation since: July 2000

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                0                   -1
         2     Number of new volunteers trained                                                                          2                0                   -2
         3     Number of media events conducted                                                                          2            3,070              3,068
         4     Number of community education events conducted                                                           15                9                   -6
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               6                2                   -4
         6     Number of group sessions for beneficiaries led by volunteers                                              3                5                    2
         7     Number of beneficiaries who attended group sessions led by volunteers                                   350               77               -273
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 124              177                   53
     7+8       Total number of beneficiaries educated                                                                  474              254               -220
         9     Estimated number of people reached by media events                                                    14,184        284,000             269,816
      10       Estimated number of people reached by community education events                                        380              630               250
      11       Number of complaints received attributable to the project                                                 5                1                   -4
      12       Number of complaints referred for followup                                                                0                1                    1
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 72

 A    P    P E N D     I X ~     D      




                      Tennessee - Upper Cumberland Development District/AAA, Cookeville                                    In operation since: July 2001

                                                                                                           July through January through Change in Last
                                            PERFORMANCE MEASURES
                                                                                                          December 2004    June 2005      6 Months
                                              OUTPUT MEASURES

      1     Number of training sessions conducted to train new volunteers                                            10                5                   -5
      2     Number of new volunteers trained                                                                         39               46                    7
      3     Number of media events conducted                                                                         53               67                   14
      4     Number of community education events conducted                                                          121              159                   38
                                             OUTCOME MEASURES

      5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              16               14                   -2
      6     Number of group sessions for beneficiaries led by volunteers                                            123               89                -34
      7     Number of beneficiaries who attended group sessions led by volunteers                                  8,506          10,539              2,033
      8     Number of one-on-one sessions held between beneficiaries and volunteers                                1,043           2,128              1,085
     7+8    Total number of beneficiaries educated                                                                 9,549          12,667              3,118
      9     Estimated number of people reached by media events                                                   727,526       1,442,023            714,497
     10     Estimated number of people reached by community education events                                      45,567          31,318            -14,249
     11     Number of complaints received attributable to the project                                                14               16                   2
     12     Number of complaints referred for followup                                                                8                2                   -6
     13     Number of complaints that resulted in some action                                                         3                0                   -3
     14     Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A    Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B    Savings to beneficiaries attributable to the project                                                   $265               $0              -$265
     15C    Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                              $265               $0              -$265
 14 + 15    Total savings attributable to the project                                                              $265               $0              -$265


                                                                                                                                              73

A    P       P E N D    I X ~     D      




                             Texas - Better Business Bureau Education Foundation, Houston                                     In operation since: July 2002

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             0                1                    1
         2     Number of new volunteers trained                                                                          0               12                   12
         3     Number of media events conducted                                                                          4                4                    0
         4     Number of community education events conducted                                                          167               36              -131
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0               12                   12
         6     Number of group sessions for beneficiaries led by volunteers                                              7               23                   16
         7     Number of beneficiaries who attended group sessions led by volunteers                                   139              716               577
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   5              104                   99
     7+8       Total number of beneficiaries educated                                                                  144              820               676
         9     Estimated number of people reached by media events                                                    27,038          45,300            18,262
      10       Estimated number of people reached by community education events                                       2,935           1,659            -1,276
      11       Number of complaints received attributable to the project                                                20               50                   30
      12       Number of complaints referred for followup                                                                8                9                    1
      13       Number of complaints that resulted in some action                                                         3                2                   -1
      14       Medicare funds recovered attributable to the project                                                   $962              $79            $1,046
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                              $962           $2,008            $1,046


                                                                                                                                                 74

A    P       P E N D    I X ~     D      




                             Texas - The National Hispanic Council on Aging, Corpus Christi                                   In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             8                9                   1
         2     Number of new volunteers trained                                                                         83              128                   45
         3     Number of media events conducted                                                                         26               25                   -1
         4     Number of community education events conducted                                                           26               23                   -3
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0                8                    8
         6     Number of group sessions for beneficiaries led by volunteers                                             25              125               100
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,650           3,692              2,042
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 116              436               320
     7+8       Total number of beneficiaries educated                                                                 1,766           4,128              2,362
         9     Estimated number of people reached by media events                                                 2,300,000       2,751,000            451,000
      10       Estimated number of people reached by community education events                                       7,370           2,613             -4,757
      11       Number of complaints received attributable to the project                                                58              436               378
      12       Number of complaints referred for followup                                                                6               26                   20
      13       Number of complaints that resulted in some action                                                         1                5                   4
      14       Medicare funds recovered attributable to the project                                                    $65           $5,829             $5,764
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                               $65           $5,829             $5,764


                                                                                                                                                 75

A    P       P E N D    I X ~     D      




                                         Utah - Utah Legal Services, Salt Lake City                                           In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                            19               48                   29
         2     Number of new volunteers trained                                                                        176              212                   36
         3     Number of media events conducted                                                                          9               14                    5
         4     Number of community education events conducted                                                           30               36                   6
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              56               92                   36
         6     Number of group sessions for beneficiaries led by volunteers                                             38               45                    7
         7     Number of beneficiaries who attended group sessions led by volunteers                                   705            1,149               444
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 417            1,386              969
     7+8       Total number of beneficiaries educated                                                                 1,122           2,535             1,413
         9     Estimated number of people reached by media events                                                     3,227           8,919             5,692
      10       Estimated number of people reached by community education events                                       7,030           1,539            -5,491
      11       Number of complaints received attributable to the project                                                14               89                   75
      12       Number of complaints referred for followup                                                               16               22                    6
      13       Number of complaints that resulted in some action                                                         4                4                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 76

A    P       P E N D    I X ~     D      




                                   Vermont - Community of Vermont Elders, Montpelier                                          In operation since: July 2003

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             2                2                   0
         2     Number of new volunteers trained                                                                         19               19                    0
         3     Number of media events conducted                                                                          6               36                   30
         4     Number of community education events conducted                                                           22               10               -12
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0                0                    0
         6     Number of group sessions for beneficiaries led by volunteers                                              0                0                    0
         7     Number of beneficiaries who attended group sessions led by volunteers                                     0                0                    0
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   0                0                   0
     7+8       Total number of beneficiaries educated                                                                    0                0                    0
         9     Estimated number of people reached by media events                                                   134,204        202,000             67,796
      10       Estimated number of people reached by community education events                                        772              320              -452
      11       Number of complaints received attributable to the project                                                 3                4                   1
      12       Number of complaints referred for followup                                                                2                1                   -1
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 77

A    P       P E N D    I X ~     D      




                          Virginia - Virginia Association of Area Agencies on Aging, Richmond                                 In operation since: July 1999

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             2                1                   -1
         2     Number of new volunteers trained                                                                          7                3                   -4
         3     Number of media events conducted                                                                         39               34                   -5
         4     Number of community education events conducted                                                          121              223               102
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               2                0                   -2
         6     Number of group sessions for beneficiaries led by volunteers                                             30               28                   -2
         7     Number of beneficiaries who attended group sessions led by volunteers                                   464              355              -109
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   0                0                   0
     7+8       Total number of beneficiaries educated                                                                  464              355              -109
         9     Estimated number of people reached by media events                                                 1,475,200       1,388,533            -86,667
      10       Estimated number of people reached by community education events                                       4,294          12,678             8,384
      11       Number of complaints received attributable to the project                                                23               12               -11
      12       Number of complaints referred for followup                                                               14                8                   -6
      13       Number of complaints that resulted in some action                                                         2                0                   -2
      14       Medicare funds recovered attributable to the project                                                  $1,520              $0            -$1,520
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                             $1,520              $0            -$1,520


                                                                                                                                                 78

 A    P    P E N D     I X ~     D      




                              Washington - Office of the Insurance Counselor, Olympia                                      In operation since: July 1999

                                                                                                           July through January through Change in Last
                                            PERFORMANCE MEASURES
                                                                                                          December 2004    June 2005      6 Months
                                              OUTPUT MEASURES

      1     Number of training sessions conducted to train new volunteers                                           204              214                   10
      2     Number of new volunteers trained                                                                         84               69               -15
      3     Number of media events conducted                                                                         83              125                   42
      4     Number of community education events conducted                                                           49               64                   15
                                             OUTCOME MEASURES

      5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries              84               69               -15
      6     Number of group sessions for beneficiaries led by volunteers                                            132              220                   88
      7     Number of beneficiaries who attended group sessions led by volunteers                                  6,279           9,322             3,043
      8     Number of one-on-one sessions held between beneficiaries and volunteers                               23,179          16,252            -6,927
     7+8    Total number of beneficiaries educated                                                                29,458          25,574            -3,884
      9     Estimated number of people reached by media events                                                   920,721       5,659,464         4,738,743
     10     Estimated number of people reached by community education events                                      10,088          18,834             8,746
     11     Number of complaints received attributable to the project                                                10               12                   2
     12     Number of complaints referred for followup                                                                3                7                    4
     13     Number of complaints that resulted in some action                                                         0                4                   4
     14     Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A    Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B    Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C    Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                $0               $0                   $0
 14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                              79

A    P       P E N D    I X ~     D      




                                       West Virginia - AARP Foundation, Charleston                                            In operation since: July 2003

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                2                   1
         2     Number of new volunteers trained                                                                          2               14                   12
         3     Number of media events conducted                                                                         28               27                   -1
         4     Number of community education events conducted                                                           33               45                   12
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               5                5                    0
         6     Number of group sessions for beneficiaries led by volunteers                                             10               16                    6
         7     Number of beneficiaries who attended group sessions led by volunteers                                   241              656                415
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   3                1                   -2
     7+8       Total number of beneficiaries educated                                                                  244              657                413
         9     Estimated number of people reached by media events                                                 1,769,380       1,448,151            -321,229
      10       Estimated number of people reached by community education events                                       5,368          27,793             22,425
      11       Number of complaints received attributable to the project                                                 5                7                   2
      12       Number of complaints referred for followup                                                                2                3                    1
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 80

A    P       P E N D    I X ~     D      




                               Wisconsin - Coalition of Wisconsin Aging Groups, Madison                                       In operation since: July 1997

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             3                5                   2
         2     Number of new volunteers trained                                                                         49               96                   47
         3     Number of media events conducted                                                                         66            6,091             6,025
         4     Number of community education events conducted                                                           31               80                   49
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               8                7                   -1
         6     Number of group sessions for beneficiaries led by volunteers                                             52               44                   -8
         7     Number of beneficiaries who attended group sessions led by volunteers                                  1,982           1,167              -815
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                  39               15               -24
     7+8       Total number of beneficiaries educated                                                                 2,021           1,182              -839
         9     Estimated number of people reached by media events                                                    58,837       1,577,345         1,518,508
      10       Estimated number of people reached by community education events                                      11,866           6,488            -5,378
      11       Number of complaints received attributable to the project                                                22               24                   2
      12       Number of complaints referred for followup                                                                2                5                    3
      13       Number of complaints that resulted in some action                                                         1                4                   3
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 81

A    P       P E N D    I X ~     D      




                             Wisconsin - Great Lakes Inter-Tribal Council, Lac du Flambeau                                    In operation since: July 2003

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                2                   1
         2     Number of new volunteers trained                                                                         52               25               -27
         3     Number of media events conducted                                                                         10                9                   -1
         4     Number of community education events conducted                                                           18               15                   -3
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               0                0                    0
         6     Number of group sessions for beneficiaries led by volunteers                                              0                0                    0
         7     Number of beneficiaries who attended group sessions led by volunteers                                     0                0                    0
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                   0                0                   0
     7+8       Total number of beneficiaries educated                                                                    0                0                    0
         9     Estimated number of people reached by media events                                                     7,404             647            -6,757
      10       Estimated number of people reached by community education events                                       1,705             660            -1,045
      11       Number of complaints received attributable to the project                                                 0                0                   0
      12       Number of complaints referred for followup                                                                0                0                    0
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 82

A    P       P E N D    I X ~     D      




                                      Wyoming - Wyoming Division on Aging, Cheyenne                                           In operation since: July 2000

                                                                                                              July through January through Change in Last
                                             PERFORMANCE MEASURES
                                                                                                             December 2004    June 2005      6 Months
                                                 OUTPUT MEASURES

         1     Number of training sessions conducted to train new volunteers                                             1                1                   0
         2     Number of new volunteers trained                                                                          6               37                   31
         3     Number of media events conducted                                                                          3                3                    0
         4     Number of community education events conducted                                                            9               36                   27
                                                OUTCOME MEASURES

         5     Number of volunteers who, for the first time, conducted activities to educate beneficiaries               2                5                    3
         6     Number of group sessions for beneficiaries led by volunteers                                              6                7                    1
         7     Number of beneficiaries who attended group sessions led by volunteers                                   206               45              -161
         8     Number of one-on-one sessions held between beneficiaries and volunteers                                 921              815              -106
     7+8       Total number of beneficiaries educated                                                                 1,127             860              -267
         9     Estimated number of people reached by media events                                                    55,330        100,000             44,670
      10       Estimated number of people reached by community education events                                        310           15,000            14,690
      11       Number of complaints received attributable to the project                                                 4               25                   21
      12       Number of complaints referred for followup                                                                0                6                    6
      13       Number of complaints that resulted in some action                                                         0                0                   0
      14       Medicare funds recovered attributable to the project                                                     $0               $0                   $0
     15A       Medicaid funds recovered attributable to the project                                                     $0               $0                   $0
     15B       Savings to beneficiaries attributable to the project                                                     $0               $0                   $0
     15C       Other savings attributable to the project                                                                $0               $0                   $0
TOTAL 15 Total Medicaid funds, beneficiary savings, and other savings                                                   $0               $0                   $0
    14 + 15    Total savings attributable to the project                                                                $0               $0                   $0


                                                                                                                                                 83

84

